 DEPARTMENT OF HOMELAND SECURITY
        Office of Inspector General


       Information Technology Management 

              Letter for the FY 2007 

          Customs Border and Protection 

            Financial Statement Audit 

                    (Redacted) 





   Notice: The Department of Homeland Security, Office of Inspector General has redacted
   the report for public release. A review under the Freedom of Information Act will be
   conducted upon request.




OIG-08-50                                                      May 2008
                                                                        Office of Inspector General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                      May 6, 2008

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report presents the information technology (IT) management letter for Customs and
Border Protection’s (CBP) financial statement audit as of September 30, 2007. It contains
observations and recommendations related to information technology internal control that
were not required to be reported in the financial statement audit report (OIG-08-12,
November 2007) and represents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit of CBP’s
FY 2007 financial statements and prepared this IT management letter. KPMG is responsible
for the attached IT management letter dated December 14, 2007, and the conclusions
expressed in it. We do not express opinions on DHS’ financial statements or internal control
or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                      Richard L. Skinner 

                                      Inspector General 

                               US Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2007




               INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                   TABLE OF CONTENTS

                                                                                              Page


Objective, Scope and Approach                                                                  1


Summary of Findings and Recommendations                                                        2


IT General Controls Findings by Audit Area                                                     3


       Entity-Wide Security Program Planning and Management                                    3


       Access Controls                                                                         4


       Application Software Development and Change Controls                                    7


       System Software                                                                         8


       Service Continuity                                                                      9      


Application Control Findings                                                                   10 


                                         APPENDICES 


Appendix                                       Subject                                        Page


           Description of Key Financial Systems and IT Infrastructure within the Scope of 

A	                                                                                             11
           the FY 2007 CBP Financial Statement Audit

B	         FY 2007 Notices of IT Findings and Recommendations                                  13 


           Status of Prior Year Notices of Findings and Recommendations and Comparison 

C	                                                                                             25
           to Current Year Notices of Findings and Recommendations


D	         Management’s Response to the Draft CBP IT Management Letter                         36 

                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007



                             OBJECTIVE, SCOPE AND APPROACH 


We have audited the consolidated balance sheets of the U.S. Department of Homeland Security’s
Bureau of Customs and Border Protection (CBP) as of September 30, 2007 and 2006, and the related
consolidated statements of net cost, changes in net position, custodial activity and the combined
statement of budgetary resources for the years then ended. The overall objective of our audit was to
evaluate the effectiveness of IT general controls of CBP’s financial processing environment and
related IT infrastructure as necessary to support the engagement. The Federal Information System
Controls Audit Manual (FISCAM), issued by the Government Accountability Office, formed the basis
of our audit. The scope of the IT general controls assessment included testing at CBP’s Office of
Information Technology (OIT) and other offices related to the IT general controls portion of the
financial statement audit.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and extent
of review that generally should be performed when evaluating general controls and the IT environment
of a federal agency. FISCAM defines the following six control functions to be essential to the
effective operation of the general IT controls environment.

•	 Entity-wide security program planning and management (EWS) – Controls that provide a
   framework and continuing cycle of activity for managing risk, developing security policies,
   assigning responsibilities, and monitoring the adequacy of computer-related security controls.
•	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and
   disclosure.
•	 Application software development and change control (ASDCC) – Controls that help to prevent the
   implementation of unauthorized programs or modifications to existing programs.
•	 System software (SS) – Controls that limit and monitor access to powerful programs that operate
   computer hardware.
•	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations,
   thus deterring unauthorized actions or access to assets or records.
•	 Service continuity (SC) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices, as well as testing of key financial application controls. The technical
security testing was performed both over the Internet and from within select CBP facilities, and
focused on test, development, and production devices that directly support CBP financial processing
and key general support systems.

In addition to testing CBP’s general control environment, we performed application control tests on a
limited number of CBP financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.




                                           1
 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


•	 Application Controls (APC) - Application controls are the structure, policies, and procedures that
   apply to separate, individual application systems, such as accounts payable, inventory, payroll,
   grants, or loans.


                   SUMMARY OF FINDINGS AND RECOMMENDATIONS

During fiscal year (FY) 2007, CBP took corrective action to address prior year IT control weaknesses.
For example, CBP made improvements in its certification and accreditation program, specially related
to its Administrative Applications and                                                            Also,
issues with access controls related to the Systems, Applications and Products (SAP) system were
addressed. However, during FY 2007, we continued to identify IT general control weaknesses at
CBP. The most significant weaknesses from a financial statement audit perspective related to controls
over access to programs and data and controls over program changes. Collectively, the IT control
weaknesses limited CBP’s ability to ensure that critical financial and operational data were maintained
in such a manner to ensure confidentiality, integrity, and availability. In addition, these weaknesses
negatively impacted the internal controls over CBP financial reporting and its operation and we
consider them to collectively represent a material weakness for CBP under standards established by
the American Institute of Certified Public Accountants (AICPA). The information technology
findings were combined into one material weakness regarding Information Technology for the FY
2007 audit of the CBP consolidated financial statements.

Although we noted improvement, many of the conditions identified at CBP in FY 2006 have not been
corrected because CBP still faces challenges related to the merging of numerous IT functions,
controls, processes, and organizational resource shortages. During FY 2007, CBP took steps to
address these conditions. Despite these improvements, CBP needs further emphasis on the monitoring
and enforcement of access controls as well as implementing and enforcing the CBP-wide security
certification and accreditation (C&A) program. Many of the issues identified during our review,
which were also identified during FY 2006 and prior can be addressed through a more consistent and
effective security C&A program and security training program.

While the recommendations made by KPMG should be considered by CBP, it is the ultimate
responsibility of CBP management to determine the most appropriate method(s) for addressing the
weaknesses identified based on their system capabilities and available resources.




                                           2

 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                  US Customs and Border Protection
                               Information Technology Management Letter
                                          September 30, 2007


                          IT GENERAL CONTROL FINDINGS BY AREA


Entity-Wide Security Program Planning and Management

During FY 2007, CBP improved its level of entity-wide security program planning and management.
However, continued efforts are needed, especially in the areas of program management related to the
detection and monitoring of technical information security weaknesses. As identified in prior year
issues reported in FY 2003, FY 2004, FY 2005 and FY 2006, we noted that improvements are still
needed in CBP’s Incident Handling and Response Capability which may potentially limit CBP’s
ability to respond to incidents in an appropriate manner. Collectively, the identified entity-wide
security planning and management issues, coupled with the access control issues described later in this
management letter, reduce the overall effectiveness of the entity-wide security programs for CBP.

1     Conditions noted regarding entity-wide security program planning and management were the
      following:

      •	                        will not be installed on all workstations for the majority of the fiscal
         year.
      •	 A complete listing of workstations is not maintained by System Security. System Security
         does not have the ability to quickly compile a listing of all workstations under CBP’s
         ownership.
      • The completion of security awareness training is not appropriately tracked at CBP.
      •	 The following documents did not have proper documented approval and/or approval dates:
         - SDLC Configuration Management Plan


           -	 Production Management Team Procedures

      •	 The                       process has several weaknesses. KPMG


                                                                                         Consequently,
         KPMG was not able to determine whether the reviews of specific
         of roles were performed at these ports/headquarters. The                                is not
         consistently executed at the various ports. Appropriate documentation is not maintained for all
         recertifications.
      •	 Virus protection is not installed on all CBP workstations.
      •	 The               did not have an Information Systems Security Officer (ISSO), but had been
         assigned an interim ISSO. This interim ISSO was not formally documented as the
         ISSO.

Recommendations:
1.	 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders
    consider the following actions:

      •	                  should be installed on all workstations under CBP control.
      •	 The use of local workgroups should be eliminated. All CBP workstations should be included
         in a CBP administered domain. A   	 lso, the CBP CIO should compile and regularly maintain a
                                                     3
    Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


        full and accurate listing of CBP workstations and use this list to monitor and maintain patch
        levels for all CBP workstations.
   •	   Security awareness training should be completed in a timely manner by all employees with
        access to CBP information systems. CBP should continue to work towards implementing
        online training for all personnel to facilitate automated tracking of the completion of security
        awareness training.
   •	   Procedures should be implemented and enforced in OIT divisions to perform a review of all
        documentation to update, consolidate and approve the documented procedures in use by
        operational personnel.
   •    Procedures should be applied as outlined in the newly distributed memorandum from Office of
        Field Operations dated April 27, 2007 while consistently documenting results of
        recertifications at the port level and maintaining said documentation.
   •	    Since the initial testing was performed, CBP has begun immediate remediation. CBP should
        continue remediation to ensure that antivirus protection is installed on all workstations under
        the control of CBP.
   •	   The appointment of the                    Interim ISSO should be documented with a formal
        designation letter. Ultimately, a full time ISSO for the                should be appointed and
        documented with a formal designation letter.

Access Controls

Access to programs and controls over data should provide reasonable assurance that computer
resources such as data files, application programs, and computer-related facilities and equipment are
protected against unauthorized modification, disclosure, loss, or impairment. Physically securing
access includes keeping computers in locked rooms to limit physical access. Logical controls, such as
security software programs, are designed to prevent or detect unauthorized access to sensitive files.
Inadequate access controls diminish the reliability of data and increase the risk of unauthorized data
modification, malicious or unintentional destruction of data, or inappropriate disclosure of
information.
During FY 2007, CBP improved in the area of access to programs and data, specifically regarding
     . However, KPMG also identified additional issues. We noted significant access control
vulnerabilities                                                                These are significant
issues as personnel inside the organization who best understand the organization’s systems,
applications, and business processes have the ability to knowingly, or unknowingly, exploit these
specific systems, applications, and powerful system utilities. Some of the vulnerable devices
identified were used for                              . In some cases, users were able to access
                          with group passwords, system default passwords, or the same passwords
with which they logged                            As a result, unauthorized users could maliciously
target                               to obtain information                                to attempt
further access into CBP’s                          .

2.	 Conditions noted regarding access controls were the following:
   •	 A full listing of trade partners was never compiled to assess the full scope of the status of
      connections to       . KPMG noted that a complete and accurate listing is still not maintained.
      Of those connections that have been accounted for, KPMG noted that only 7% of identified
      legacy connections had an interconnection security agreement (ISA) that has not expired.
      KPMG does note that a virtual private network (VPN) solution is being phased in and legacy
      connections are being phased out and that significant progress is being made to move all

                                           4

 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


       existing trade partners to the new VPN solution, in which they will obtain an ISA documenting
       the connection.
  •	   A centralized listing of contract personnel is not maintained, including employment status.
       The only method CBP employs to track terminated contractors is the use of a report of users
       that had their mainframe accounts deleted. KPMG cannot acknowledge this list as
       representative of all terminated contractors, since terminated contract personnel may not have
       mainframe access or their access may not have been removed after their termination.
  •	   Password parameters do not meet CBP or DHS policy.
  •	   CBP policy is inconsistent with DHS policy. CBP’s policy stated that sessions should
       automatically disconnect after 30 minutes of inactivity, which is not consistent with DHS
       policy. Also, CBP’s policy stated that the workstation should log off from all connections
       after 5 minutes of inactivity. According to applicable guidance, all system connections do not
       need to be terminated after 5 minutes of inactivity on the workstation. CBP workstations
       could not enforce the activation of a password-protected screensaver after five minutes of
       inactivity. The settings could be disabled or changed by individual users.
  •	   A solution has not been implemented to maintain                       audit logs for an appropriate
       period of time. Audit logs are not being reviewed for security violations for the               .
  •	   System accounts on the                 are given to users so they may perform their duties at CBP.
       When a user has not used the account for a specified period of time as noted in issued policies,
       that account should be disabled automatically by the system. During the course of FY 2007,
       this control was not adequately implemented.
  •	   Deficiencies regarding control over physical data center access resulting from inadequate
       recertification performed for physical access to the data center.
  •	   Audit logs of powerful                 system utilities are not maintained. KPMG reviewed the
       existence of               logs for a selection of dates and noted that logs were not available for
       several of the selected dates. KPMG noted that within a 90-day window, complete logs were
       available for all selected dates except one. For the year-long window, 17 summary reports
       were unavailable.
  •	         is currently configured to disable accounts after 90 days of inactivity. KPMG also noted
       that the job is configured to run weekly, which does not comply with the requirement for
       automatic disabling of accounts after 30 days of inactivity.
  •	         has been adjusted to limit active emergency access to 24 hours after the request. KPMG
       notes, however, that the emergency table is still being used and that administrator or
       supervisory approval is not required each time emergency access is activated once an
       individual has been added to this emergency access table.
  •	   There are currently no procedures in place for the completion of semi-annual recertifications of
                     accounts. KPMG also noted that a recertification of                    accounts is not
       performed on a semi-annual basis.
  •	   Several access control weaknesses for the VPN solution were found.
  •	   The log indicating changes to a user’s access in                       is not regularly reviewed by
       personnel independent from those individuals that made the changes.
  •	   Evidence of the review of                security violation logs for 6 of 25 dates was not available
       for review.
  •	   Authorizations are not being maintained for personnel that have administrator access to Top
       Secret in the             environment.
  •	   Access control policies and procedures have not been formally documented for the                   .
       KPMG also noted that access authorization forms were not completed for 27 out of 45
       accounts created in FY 2007.


                                          5
Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


   •	 Procedures have been developed and a new termination form (CF-241) has been developed for
      use in terminating employees. However, these procedures were not implemented during the
      majority of the fiscal year.
   •	 Multiple terminated employees retained active accounts on the      . They were disabled as a
      result of accounts being inactive for 90 days. Therefore, these accounts were active 90 days
      after the employee terminated from CBP.
   •	 Configuration management exceptions were identified on CBP domain controllers and hosts
      supporting the                 .
   •	 Patch management exceptions were identified on CBP domain controllers and hosts supporting
      the                  .
Recommendations:
2.	 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders
    consider the following actions:
   •	 CBP should identify all connections in place with the            and account for each connection
      with a documented ISA.
   •	 CBP should continue to work towards implementation of a contractor employee tracking
      system. Deactivation of all systems access of terminated contractors should occur immediately
      upon separation from CBP. A listing of terminated contract personnel should be periodically
      distributed to information system administrators so they remove user access and periodically
      assess contractor access to CBP systems.
   •	 Configuration of          password policies should reflect those set forth in CBP and DHS
      guidance. Also, configuration of                 password policies should reflect those set forth in
      CBP and DHS guidance.
   •	 CBP’s automatic session disconnection policy should be modified to be consistent with DHS
      policy. CBP’s policy should be modified to reflect that only the password-protected
      screensaver must be activated after 5 minutes of inactivity. CBP should continue deployment
      of Active Directory and Windows 2003 in order to establish and maintain group policy and
      enforce password-protected screensaver settings on the workstations.
   •	 CBP should configure the                      to maintain audit logs and track security events
      according to CBP and DHS policies.                    audit logs should be reviewed on a regular
      basis, according to CBP and DHS policy, to detect potential security events.
   •	              Administrators should implement a control to automatically disable or remove
      accounts after thirty days of inactivity in the system.
   •	 CBP should continue to work towards improving the recertification process followed for
      reviewing access to the data center. An access request form should be required before access
      is granted to the data center, as stated in CBP policies and procedures. Terminated employees’
      access should be removed immediately upon termination of the employee.
   •	 Complete and accurate records should be maintained of                    logs in accordance with
      CBP document retention policy. The                       logs should be reviewed regularly for
      suspicious activity in accordance with CBP policy.
   •	 The configuration for         should be modified to disable accounts after 30 days of inactivity.
      The job schedule for the deactivation procedure should be modified to execute on a daily basis
      to minimize the time difference between the inactivity period and deactivation time.
   •	 Supervisory approval should be required each time a user requires activation of emergency
      access abilities on the      . Regular recertifications of the emergency access table should be
      performed to ensure persons with the capability to request emergency access need to remain on
      the emergency access table.
   •	 Formal procedures should be developed outlining guidance for recertifying 

                                                    6

 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


        accounts and access to shared data. Regular recertifications of             accounts and access
        to shared data should be performed as required by the developed procedures.
   •	   The VPN servers should be configured to store information about the creation dates and
        activity of users in order to be able to properly identify inactive accounts and allow for their
        deletion. The recertification process should be automated in order to remove the need for after
        the fact recertification via methods not documented in recertification procedures (email,
        verbal, etc.). The process of deactivating accounts at the end of the recertification period
        should be improved to ensure that all accounts that should be removed from the system are
        removed.
   •	   Procedures should be formalized for reviewing access change logs. The review of these logs
        should be implemented on a periodic basis as set forth in CBP procedures.
   •	   A periodic review of access violation logs should be performed for all systems.
   •	   Procedures should be developed and implemented to restrict access to
        administrative capabilities. Documented and approved authorization requests should be
        required for each person needing access to the mainframe administrative capabilities.
   •	   Access control policies and procedures should be developed and implemented for the
              . Documented and approved authorization requests should be required for each person
        needing access to the             .
   •	   The recently developed procedures for completion of the employee termination forms should
        be implemented. System Security should be notified of all terminating employees so that
        systems access can be removed appropriately and timely.
   •	   CBP should work to coordinate notices of termination of employees in a timely manner so that
        accounts can be deactivated immediately upon the departure of the employee.
   •	   Corrective actions should be implemented to ensure that information systems that support the
                           and other financial systems are configured to the security requirements
        outlined in DHS policy. Configurations that should be addressed include, but are not limited
        to: stronger password configurations, restrictions on access granted to ports on servers and
        audit log generation and maintenance.
   •	   Corrective actions should be completed surrounding the vulnerabilities identified and
        implement policies and procedures to ensure that the information systems that support and
        maintain CBP financial data are secured with the most up to date and tested patches provided
        by vendors. Patches that have been validated as appropriate for CBP information systems
        should be applied to these systems to address the conditions noted.

Application Software Development and Change Controls

During FY 2007, we noted that CBP took corrective actions to address and close most prior year
findings related to program changes. However, we identified additional findings related to program
changes during our FY 2007 test work.

3. Conditions noted regarding program changes at CBP were the following:
   •	 Developers can overwrite existing code in the development environment. The developer is
      able to extract the code from the development environment and place it into a personal folder
      on the user’s personal computer. If multiple users are modifying a program in their own
      personal folders they may be overwriting existing changes.
   •	 Controls over changes to the                 environment need improvement.
      −	 3 out of 5 selected                            did not have post-implementation executive
          approval as required by the new OIT emergency change procedures.

                                           7
 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


      − 3 of the 15 selected changes to       did not have formally documented test plans or test
         results.
      − None of the changes to      showed evidence of review of the test results documented.
   •	 Controls over changes to the                 need improvement.
      − 9 of the 20 changes to     did not have formal test plans or documented results.
      − None of the changes to      showed evidence of review of the documented test results.

Recommendations:
3.	 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders
    consider the following actions:
   •	 Procedures should be implemented which prevent the overwriting of development code in the
      development environment.
   •	 Emergency change management post-implementation procedures should be constantly applied
      to all                                Furthermore, regular review of post-implementation
      procedures should occur. Regular feedback should be provided to change administrators to
      determine if any post-implementation steps may have been missed due to the expeditious
      nature of emergency changes.
   •	 CBP management OIT Change Control Board (CCB) and                        should ensure that all
      program offices appropriately document all test data, transactions, and program change results
      to monitor the quality of program changes.

System Software

During FY 2007, we noted that CBP took corrective actions to address and close one prior year
finding related to system software. However, we identified additional findings related to system
software during our FY 2007 test work.

4. Conditions noted regarding system software at CBP were the following:
    •	 Reviews of powerful system utilities are not conducted. While procedures are now in place
       for review of these logs, these procedures were not in place for the majority of the fiscal year.

Recommendations:
4.	 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders
    consider the following actions:
    •	 Policies and procedures that have been developed for monitoring and reviewing logs of
       powerful           system utilities for suspicious activity should be fully implemented.



Service Continuity

During FY 2007, we noted that CBP took corrective actions to address and close all prior year findings
related to service continuity. However, we identified additional findings related to service continuity
during our FY 2007 test work.

5. Conditions noted regarding service continuity at CBP were the following:

                                           8
 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                               US Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2007


   •	 Backup tapes did not have external labels affixed in order to indicate the sensitivity of the data
      contained in the tapes. Instead, containers in which the tapes are stored are labeled with media
      labels. Currently, CBP has obtained a waiver which relieves the responsibility to label media
      directly. However, because CBP is not in compliance with DHS policy, despite obtaining a
      waiver, the risk of CBP non-compliance still remains. If backup tapes were removed from the
      common container, there is still no indication of the sensitivity of the data on the tapes.
   •	 Tape withdrawal requests were not documented.

Recommendations:
5.	 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders
    consider the following actions:
   •	 A method for labeling tapes should be developed that will not interfere with the tape library
      hardware.
   •	 Tape withdrawal requests should be monitored and logged to ensure that the withdrawal
      protocols are being appropriately followed.




                                           9

 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


                              APPLICATION CONTROL FINDINGS 

During FY 2007, KPMG noted that a weakness in the drawback controls continues to exist within the
             . Specifically,      does not support the tracking of drawback items to the line item level.
Rather,        only tracks drawbacks on a summary level. This control weakness was identified in FYs
2003, 2004, 2005, and 2006. This control weakness was presented to CBP management by the KPMG
financial statement team as significant control weaknesses and also noted by the KPMG IT team.
Also, due to the design of      , certain controls can be overridden without supervisory approval. For
example, when a CBP entry specialist attempts to liquidate an import entry in              , the system
displays a warning message, indicating that a drawback claim had been filed against the import entry.
However, entry specialists could override the warning message without supervisory review and
process a refund without investigating pending drawback claims. The purpose of this warning
message is to ensure that both a refund and drawback are not paid on the same goods. Entry
specialists could override system edits designed to detect refunds exceeding the total duty, tax, and
fees paid on an import entry.       does not currently generate override reports for supervisory review.
In FY 2007, KPMG noted that there has been little change in the status of this finding. CBP is
developing a control override report which will record all control overrides that have taken place for a
period of time. Management stated that          will not be implemented in FY 2007. KPMG concluded
that a control mechanism to prevent overrides by specialists without supervisory approval would be an
appropriate technical safeguard under application controls. Therefore, CBP should develop and
implement a management review process of a control override report to facilitate independent review
of any control overrides that take place. Ultimately, CBP should implement the appropriate controls
in       so that supervisory approval is required before a control override can occur.




                                          10 

 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                US Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2007


                   MANAGEMENT COMMENTS AND OIG EVALUATION 


We obtained written comments on a draft of this report from the CBP CIO. Generally, the CBP CIO
agreed with all of the report’s findings and recommendations. We have incorporated the comments
where appropriate and included a copy of the comments in their entirety at Appendix D.


In his response, the CBP CIO stated that CBP is:
        •	 Taking steps to ensure that entity-wide security program planning and management
           controls are in place to establish a framework and continuing cycle of activity to manage
           security risk;
        •	 Working to ensure that the assignment of sensitive functions is legitimate, that the
           weaknesses that can lead to a control override in certain systems is mitigated, and that
           physical and electronic access to sensitive CBP systems is secured and carefully
           monitored;
        •	 Continuing to develop applicable policies and procedures to ensure that certain duties are
           separated, as necessary and to monitor user roles and new user or access requests to
           prevent future segregation of duty conflicts;
        •	 Working to ensure that the                                Continuity of Operations Plan
           (COOP) is as current as possible, and that the alternate processing site has the hardware
           and support necessary to continue operations in the event of an emergency; and
        •	 Ensuring that proper separation of roles between the development and production
           environments are established.

OIG Response


We agree with the steps that CBP is taking to satisfy these recommendations.




                                          11 

 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                           US Customs and Border Protection
                        Information Technology Management Letter
                                   September 30, 2007




                                   APPENDIX A 


     DESCRIPTION OF KEY FINANCIAL SYSTEMS AND IT 

  INFRASTRUCTURE WITHIN THE SCOPE OF THE FY 2007 CBP 

             FINANCIAL STATEMENT AUDIT 





                                         12 

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                              APPENDIX A

                                   US Customs and Border Protection
                                Information Technology Management Letter
                                           September 30, 2007

             DESCRIPTION OF FINANCIAL SYSTEMS AND IT INFRASTRUCTURE 


Below is a description of significant CBP financial management systems and supporting IT
infrastructure included in the scope of CBP’s FY 2007 Financial Statement Audit.
Locations of Review: The CBP 	                                                            .
Systems Subject to Review:
•	                                                                        is CBP’s financial management
      system that consists of a ‘core’ system, which supports primary financial accounting and reporting
      processes, and a number of additional subsystems for specific operational and administrative
      management functions.             is a client/server-based financial management system that was
      implemented beginning in FY 2004 to ultimately replace the                         -based financial
      system using a phased approach.

•	                                                     is a collection of business process             -based
      systems used by CBP to track, control, and process all commercial goods, conveyances and private
      aircraft entering the U.S. territory for the purpose of collecting import duties, fees, and taxes owed
      to the Federal government. Key application software within                 includes systems for data
      input/output, entry and entry summary, and collection of revenue.

•                                                              – Used for tracking seized assets, Customs
      Forfeiture Fund, and fines and penalties.




                                             13 

    Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                               FOR OFFICIAL USE ONLY

                          US Customs and Border Protection 

                       Information Technology Management Letter
                                  September 30, 2007




                                  APPENDIX B 


  FY 2007 NOTICES OF IT FINDINGS AND RECOMMENDATIONS 





                                         14

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                    APPENDIX B
                                         US Customs and Border Protection
                                      Information Technology Management Letter
                                                 September 30, 2007


                 CBP FY 2007 IT NOTICES OF FINDINGS AND RECOMMENDATIONS 

                          RELATED TO FINANCIAL SYSTEM SECURITY 


      Notices of Findings and Recommendations – Definition of Risk Ratings:

      The Notices of Findings and Recommendations (NFR) were risk ranked as High, Medium, and Low
      based upon the potential impact that each weakness could have on the CBP’s control environment and
      on the integrity of the financial data residing on the CBP’s financial systems. In addition, analysis was
      conducted collectively on all the NFRs to assess connections between individual NFRs, which when
      joined together could lead to a control weakness occurring with more likelihood and/or higher impact
      potential.

      High Risk: A control weakness serious in nature to create a potential material misstatement to the
      financial statements.

      Medium Risk: A control weakness, in conjunction with other events, less severe - in nature than a
      high risk issue, which could lead to a misstatement to the financial statements.

      Low Risk: A control weakness minimal in impact to the financial statements.

      The risk ratings included in this report are intended solely to assist management in prioritizing its
      corrective actions.

                                                                                            New      Repeat    Risk
   NFR #                      Condition                         Recommendation
                                                                                            Issue     Issue   Rating
CBP-IT-07-01   Due to the design of       , certain        •   Develop and implement                    X      High
               controls can be overridden without              a management review
               supervisory approval. For example,              process of a control
               when a CBP entry specialist attempts to         override report to
               liquidate an import entry in       , the        facilitate independent
               system displays a warning message,              review of any control
               indicating that a drawback claim had            overrides that take place.
               been filed against the import entry.        •   Implement the
               However, entry specialists could                appropriate controls in
               override the warning message without                   so that supervisory
               supervisory review and process a                approval is required
               refund without investigating pending            before a control override
               drawback claims. The purpose of this            can occur.
               warning message is to ensure that both
               a refund and drawback are not paid on
               the same goods. We also determined
               that entry specialists could override
               system edits designed to detect refunds
               exceeding the total duty, tax, and fees
               paid on an import entry.         does not
               currently generate override reports for
               supervisory review.

               In FY 2007, we noted that there has
               been little change in the status of this


                                                15
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                     APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                             New      Repeat    Risk
   NFR #                      Condition                         Recommendation
                                                                                             Issue     Issue   Rating
               finding. CBP is developing a control
               override report which will record all
               control overrides that have taken place
               for a period of time. Management
               stated that       will not be
               implemented in FY 2007. We
               concluded that a control mechanism to
               prevent overrides by specialists without
               supervisory approval would be an
               appropriate technical safeguard under
               application controls.

CBP-IT-07-02   A full listing of trade partners was        Identify all connections in                  X      Medium
               never compiled to assess the full scope     place with the       and
               of the status of connections to       .     account for each connection
               We noted that a complete and accurate       with a documented ISA.
               listing is still not maintained. Of those
               connections that have been accounted
               for, we noted that only 7% of identified
               legacy connections had an ISA that has
               not expired. A VPN solution is being
               phased in and legacy connections are
               being phased out and that significant
               progress is being made to move all
               existing trade partners to the new VPN
               solution, in which they will obtain an
               ISA documenting the connection.

CBP-IT-07-03   CBP does not maintain a centralized         •    Continue work towards                   X         High
               listing of contract personnel, including         implementation of a
               employment status. The only method               contractor employee
               CBP employs to track terminated                  tracking system.
               contractors is the use of a report of       • Deactivate all systems
               users that had their mainframe accounts          access of terminated
               deleted. We cannot acknowledge this              contractors immediately
               list as representative of all terminated         upon separation from
               contractors, since terminated contract           CBP.
               personnel may not have mainframe
                                                           • Periodically distribute a
               access or their access was not removed
                                                                listing of terminated
               after their termination.
                                                                contract personnel to
                                                                information system
                                                                administrators so they
                                                                remove user access and
                                                                periodically assess
                                                                contractor access to CBP
                                                                systems.
CBP-IT-07-04   We confirmed that in FY 2007, backup        Develop a method for                         X         Low
               tapes do not have external labels           labeling tapes that will not
               affixed in order to indicate the            interfere with the tape library
               sensitivity of the data contained in the    machinery.

                                                16
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                    APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                            New      Repeat    Risk
   NFR #                      Condition                         Recommendation
                                                                                            Issue     Issue   Rating
               tapes. Instead, containers in which the
               tapes are stored are labeled with media
               labels. Currently, CBP has obtained a
               waiver which waives the responsibility
               to label media directly. However, CBP
               remains non-compliant and the risk still
               remains.

CBP-IT-07-05   We noted the following issues related       •   Configure                               X         High
               to password parameters:                         password policies to
               •                minimum password               reflect those set forth in
                   length is set to six characters             CBP and DHS guidance.
               • Password complexity is not set on         •   Configure
                   the                                         password policies to
               •                minimum password               reflect those set forth in
                   length is set to six characters             CBP and DHS guidance.
               • Password complexity is not set on
                   the

CBP-IT-07-06   We noted the following issues:              •   Modify CBP’s automatic                  X      Medium
               • CBP’s policy stated that sessions             session disconnection
                  should automatically disconnect              policy so that it is
                  after 30 minutes of inactivity,              consistent with DHS
                  which is not consistent with DHS             policy.
                  policy.                                  •   Modify CBP policy to
               • CBP’s policy stated that the                  reflect that only the
                  workstation should log off from all          password-protected
                  connections after 5 minutes of               screensaver must be
                  inactivity. According to applicable          activated after 5 minutes
                  guidance, all system connections             of inactivity.
                  do not have to be terminated after 5     •   Continue deployment of
                  minutes of inactivity on the                                     and
                  workstation.                                 Windows 2003 in order
               • CBP workstations could not                    to establish and maintain
                  enforce the activation of a                  group policy and enforce
                  password-protected screensaver               password-protected
                  after five minutes of inactivity.            screensaver settings on
                  The settings could be disabled or            the workstations.
                  changed by individual users.

CBP-IT-07-07   We determined that               does not   Implement procedures which                  X      Medium
               have the ability to prevent developers      prevent the overwriting of
               from overwriting existing code in the       development code in the
               development environment. The                development environment.
               developer is able to extract the code
               from the development environment and
               place it into a personal folder on the
               user’s personal computer. If multiple
               users are modifying a program in their


                                                17
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                      APPENDIX B
                                         US Customs and Border Protection
                                      Information Technology Management Letter
                                                 September 30, 2007


                                                                                              New      Repeat    Risk
   NFR #                      Condition                           Recommendation
                                                                                              Issue     Issue   Rating
               own personal folders they may be 

               overwriting existing changes. 


CBP-IT-07-08   A solution has not been implemented to        •	 Configure the                            X      Medium
               maintain             audit logs for an                 system to maintain
               appropriate period of time. Audit logs           audit logs and track
               are not being reviewed for security              security events

               violations for the           .
                  according to CBP and
                                                                DHS policies.
                                                             •	 That              audit
                                                                logs be reviewed on a
                                                                regular bases, according
                                                                to CBP and DHS policy,
                                                                to detect potential
                                                                security events.

CBP-IT-07-09   We noted that accounts are not                Implement a control to                      X         High
               deactivated automatically after 30 days       automatically disable or 

               of inactivity. Accounts are disabled for 
    remove accounts after thirty 

               inactivity once a month using a 
             days of inactivity in the 

               manually initiated job.
                      system.

CBP-IT-07-10   We reviewed the procedures and            •       Continue to work                        X      Medium
               evidence of the most recent 
                     towards improving the
               recertification performed for physical 
          recertification process.
               access to the data center. We noted the 
 •	      Require an access
               following:                                        request form before
               • Two people had access that was                  access is granted to the
                    not appropriately documented with            data center, as stated in
                    an approved access request form.             policies and procedures.
               •	 One terminated employee retained •             Remove terminated
                    access after the recertification.            employees’ access
               •	 One user was marked to be                      immediately upon
                    removed as a result of the                   termination of the
                    recertification but was not removed          employee. 

                    appropriately. 


CBP-IT-07-11   CBP System Security does not                  •	 Maintain complete and                    X      Medium
               consistently retain audit logs of                accurate records of

               powerful               system utilities. 
                   logs

               We reviewed the existence of 
                   according to CBP
                             logs for a selection of dates      document retention 

               and noted that logs were not available 
         policy.

               for a series of dates. We noted that 
        •	 Regularly review the
               within a 90 day window, complete logs                        logs for
               were available for all selected dates            suspicious activity
               except one. For the year long window,            according to CBP policy.
               17 summary reports were unavailable.
CBP-IT-07-12   As identified in prior year issues            Ensure that                                 X      Medium

                                                18
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                    APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                            New      Repeat    Risk
   NFR #                      Condition                         Recommendation
                                                                                            Issue     Issue   Rating
               reported in FY 2003, FY 2004, FY            is installed on all
               2005 and FY 2006, we noted that             workstations under the
               improvements are still needed in CBP’s      control of CBP.
               Incident Handling and Response
               Capability which may potentially limit
               CBP’s ability to respond to incidents in
               an appropriate manner. In FY 2007,
               we noted that
               will not be installed on all workstations
               for the majority of the fiscal year.

CBP-IT-07-13   During test work around the application     •   Work to eliminate the         X                Medium
               of security patches, we noted that a            use of local workgroups
               complete listing of workstations is not         and include all CBP
               maintained by System Security. We               workstations in a CBP
               noted that System Security does not             administered domain.
               have the ability to quickly compile a       •   Compile and regularly
               listing of all workstations under CBP’s         maintain a full and
               ownership.                                      accurate listing of CBP
                                                               workstations and use this
                                                               list to monitor and
                                                               maintain patch levels for
                                                               all CBP workstations.

CBP-IT-07-14   We noted that tape withdrawal requests      Monitor tape withdrawal                     X         Low
               are not documented.                         requests that come from
                                                           employees and log these
                                                           requests to ensure that tape
                                                           withdrawals are being
                                                           completed appropriately.


CBP-IT-07-15   We noted that the        is currently       •   Change the                              X         High
               configured to disable accounts after 90         configuration for       to
               days of inactivity. We also noted that          disable accounts after 30
               the job is configured to run weekly,            days of inactivity.
               which does not comply with the              •   Change the job schedule
               requirement for automatic disabling of          for the deactivation
               accounts.                                       procedure to run on a
                                                               daily basis to minimize
                                                               the time difference
                                                               between the inactivity
                                                               period and deactivation
                                                               time.

CBP-IT-07-16   We noted that the         has been          •   Require supervisory                     X      Medium
               adjusted to limit active emergency              approval each time a
               access to 24 hours after the request.           user requires activation
               We noted however that the emergency             of emergency access
               table is still being used and that

                                                19
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                  APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                          New      Repeat    Risk
   NFR #                     Condition                         Recommendation
                                                                                          Issue     Issue   Rating
               administrator or supervisory approval is       abilities.
               not required each time emergency           •   Perform regular
               access is activated.                           recertifications of the
                                                              emergency access table
                                                              to ensure persons with
                                                              the capability to request
                                                              emergency access need
                                                              to remain on the
                                                              emergency access table.

CBP-IT-07-17   CBP System Security does not conduct       Implement policies and                     X      Medium
               reviews of powerful system utilities.      procedures that have been
               Specifically, the utilities                developed for monitoring
                                                   are    and reviewing logs of
               not reviewed by management.                powerful system utilities for
                                                          suspicious activity.
               Additionally, while procedures are now
               in place for review of these logs, these
               procedures were not in place for the
               majority of the fiscal year.

CBP-IT-07-18   We noted there are currently no            •   Develop formal               X                Medium
               procedures in place for the completion         procedures for
               of semi-annual recertifications of             recertifying
                      accounts. We also note that a           accounts and access to
               recertification of            accounts         shared data.
               is not performed on a semi-annual          •   Perform regular
               basis.                                         recertifications of
                                                                    accounts and
                                                              access to shared data as
                                                              required by developed
                                                              procedures.

CBP-IT-07-19   We noted that the completion of            •   Ensure that security                   X         Low
               security awareness training is not             awareness training is
               appropriately tracked at CBP. We               completed in a timely
               noted that out of a selection of 45 CBP        manner by all employees
               employees, one employee maintained             with access to CBP
               access to       without having                 information systems.
               completed the refresher security           •   Continue to work
               awareness training course. The                 towards implementing
               individual completed an awareness              online training for all
               course that was not the CBP-wide               CBP personnel to
               security awareness training required for       facilitate automated
               all CBP employees.                             tracking of the
                                                              completion of security
                                                              awareness training.

CBP-IT-07-20   We noted several access control            •   Automate the                           X      Medium
               weaknesses for the VPN solution

                                                20
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                     APPENDIX B
                                         US Customs and Border Protection
                                      Information Technology Management Letter
                                                 September 30, 2007


                                                                                             New      Repeat    Risk
   NFR #                      Condition                          Recommendation
                                                                                             Issue     Issue   Rating
               during test work. Specifically, we               recertification process in
               noted:                                           order to remove the need
               • The VPN sever does not maintain                for after-the-fact
                   information on user account                  recertification via
                   creation and inactivity and                  methods not documented
                   therefore cannot terminate inactive          in recertification
                   accounts or provide audit                    procedures (email,
                   information regarding the creation           verbal, etc.)
                   of VPN accounts,                         •   Configure the VPN
               • Accounts that did not recertify                servers to store
                   during the recertification time              information about the
                   period or were marked for deletion           creation dates and
                   during the recertification period            activity of users in order
                   remained active on the system after          to be able to properly
                   the accounts should have been                identify inactive
                   deactivated by VPN administrators,           accounts and allow for
               • Procedures for recertifying                    their deletion.
                   accounts were not fully                  •   Improve the process of
                   implemented and accounts were                deactivating accounts at
                   recertified by means beyond those            the end of the
                   identified in documented                     recertification period and
                   procedures                                   ensure that all accounts
                                                                that should be removed
                                                                from the system are
                                                                removed.

CBP-IT-07-21   We noted that when changes to a user’s       Formalize procedures for                    X      Medium
               access are performed in                  ,   reviewing these access
               the log of these events is not regularly     change logs and that review
               reviewed by personnel independent            of these logs is implemented
               from those individuals that made the         on a periodic basis as set
               changes.                                     forth in criteria.

CBP-IT-07-22   We noted that the following documents        Implement procedures in                     X         Low
               as not having documented approval            OIT divisions to perform a
               and/or approval dates:                       review of all documentation
               •                                            to update, consolidate and
                         – No approval for majority of      approve the documented
                   fiscal year                              procedures in use by
               •   Configuration Management Code            operational personnel.
                   Migration Procedures for       –
                   No approval or effective date
               •   Configuration Management Code
                   Migration Procedures for       –
                   No approval date or effective date
               •   Production Management Team
                   Procedures – No approval, no
                   change history
               •          Operations: Standard


                                                21
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                     APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                             New      Repeat    Risk
   NFR #                      Condition                         Recommendation
                                                                                             Issue     Issue   Rating
                   Operating Procedures – No
                   approval

CBP-IT-07-23   3 out of 5 selected    Emergency            Consistently apply                 X                Medium
               Changes did not have post-                  emergency change
               implementation Executive Approval as        management post-
               required by the new OIT emergency           implementation procedures
               change procedures.                          to all     emergency
                                                           changes. Furthermore, post-
                                                           implementation procedures
                                                           should be regularly reviewed
                                                           and provide regular feedback
                                                           to change administrators to
                                                           determine any post-
                                                           implementation steps that
                                                           may have been missed due to
                                                           the expeditious nature of
                                                           emergency changes.

CBP-IT-07-24   The       recertification process has       •   Apply procedures                         X      Medium
               several weaknesses. Of the 45 selected          outlined in the newly
               ports, 45 ports none had formally               distributed memorandum
               documented communication between                from Office of Field
               the responsible DFO and OFO                     Operations dated April
               headquarters as directed by the FY              27, 2007
               2006 memorandum put out by Office of        •   Consistently document
               Finance.                                        results of recertifications
                                                               at the port level and
                                                               maintain documentation.

CBP-IT-07-25   We noted that the            does not       •   Formally document the          X                   Low
               have an ISSO, but has been assigned an          appointment of
               interim ISSO. We noted that the                                     with
               interim ISSO is not formally                    a formal designation
               documented as the             ISSO.             letter, and
                                                           •   Appoint a full time ISSO
                                                               for the            and
                                                               document that
                                                               appointment with a
                                                               formal designation letter.

CBP-IT-07-26   We noted that evidence of the review        Perform periodic review of         X                Medium
               of            security violation logs for   access violation logs.
               6 of 25 dates were not available for
               review.

CBP-IT-07-27   We noted that authorizations are not        •   Develop and implement          X                   High
               being maintained for personnel that             procedures to restrict
               have administrator access to                    access to


                                                22
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                  APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                          New      Repeat    Risk
   NFR #                      Condition                        Recommendation
                                                                                          Issue     Issue   Rating
                                                              administrative
                                                              capabilities, and
                                                          •   Require documented
                                                              authorization requests
                                                              and approval for each
                                                              person requiring access
                                                              to the
                                                              administrative
                                                              capabilities.

CBP-IT-07-28   We noted that access policies and          •   Develop and implement        X                Medium
               procedures have not been formally              access policies and
               documented for the              . We           procedures for the
               also noted that access authorization                  to document
               forms were not completed for 27 out of         formal methods for
               45 accounts created in FY 2007.                requesting and
                                                              approving access for the
                                                                          .
                                                          •   Require documented
                                                              authorization requests
                                                              and approval for each
                                                              person requiring access
                                                              to the

CBP-IT-07-29   We noted that procedures have been         •   Implement the recently                 X      Medium
               developed and a new termination form           developed procedures
               (CF-241) has been developed for use in         for completion of the
               terminating employees. While these             termination forms and
               procedures address the submission of           notify System Security
               the form to System Security and require        for all terminating
               notification of removal of system              employees so that
               access from System Security, the new           systems access can be
               procedures were developed and                  removed appropriately.
               activated in June, 2007. The
               procedures are currently not
               implemented, however.

CBP-IT-07-30   We noted that multiple terminated          •   Work with other US           X                   High
               employees retained active accounts on          CBP Offices and within
               the      . They were disabled as a             OIT to receive notice of
               result of accounts being inactive for 90       termination of
               days. Therefore, these accounts were           employees in a timely
               active 90 days after the employee              manner so that accounts
               terminated from US CBP.                        can be deactivated on the
                                                              departure of the
                                                              employee.
                                                          •   Terminate accounts for
                                                              terminated employees in
                                                              a timely manner.


                                                23
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                   APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                           New      Repeat    Risk
   NFR #                      Condition                       Recommendation
                                                                                           Issue     Issue   Rating
CBP-IT-07-31   We noted that 12 of the 45 selected       •   Apply procedures                          X     Medium
               ports/headquarters did not have self          outlined in the newly
               inspection worksheets completed.              distributed memorandum
               Accordingly, we were not able to              from Office of Field
               determine whether specific       high         Operations
               risk combinations of roles were           •   Consistently document
               performed at these ports/headquarters.        results of recertifications
                                                             at the port level.

CBP-IT-07-32   We selected 20 out of 201 changes and     Ensure that all program            X                Medium
               noted the following:                      offices appropriately
               • 9 of the 20 changes did not have        document all test data,
                   formal test plans or documented       transactions, and program
                   results                               change results.
               • None of the changes showed
                   evidence of review of the
                   documented test results.

CBP-IT-07-33   We selected 15 of 90       changes and    Ensure that all program            X                Medium
               noted the following:                      offices appropriately
               • 3 of the 15 selected changes did not    document all test data,
                   have formally documented test         transactions, and program
                   plans or test results.                change results to monitor the
               • None of the changes showed              quality of program changes.
                   evidence of review of the test
                   results documented.

CBP-IT-07-34   We noted that virus protection is not     Ensure that antivirus              X                   High
               installed on all CBP workstations.        protection is installed on all
               Specifically, we noted at the time of     workstations under the
               testing that approximately 6,000 of       control of CBP.
               CBP’s approximate 38,000
               workstations do not have antivirus
               protection installed. Since the initial
               testing was performed, we noted that
               immediate remediation has begun and
               as of September 28, 2007,
               improvements have been made but
               1,557 out of 42,429 workstations still
               are missing virus protection software.

CBP-IT-07-35   During our technical testing, eighteen    Implement corrective actions                 X         High
               configuration management exceptions       to ensure that information
               were identified                           systems that support the
                                         Domain          application and other
               Controllers and hosts supporting the      financial systems are
                    application.                         configured to the security
                                                         requirements outlined in
                                                         DHS policy. Configurations


                                                24
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                APPENDIX B
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                        New      Repeat    Risk
   NFR #                     Condition                      Recommendation
                                                                                        Issue     Issue   Rating
                                                       that should be addressed
                                                       include, but are not limited
                                                       to: stronger password
                                                       configurations, restrictions
                                                       on access granted to ports on
                                                       servers and audit log
                                                       generation and maintenance.

CBP-IT-07-36   During our technical testing, thirty-   Complete corrective actions                 X         High
               seven patch management exceptions       surrounding the
               were identified on                      vulnerabilities identified and
                                         Domain        implement policies and
               Controllers and hosts supporting the    procedures to ensure that the
                    application.                       information systems that
                                                       support and maintain CBP
                                                       financial data are secured
                                                       with the most up to date and
                                                       tested patches provided by
                                                       vendors. Patches that have
                                                       been validated as appropriate
                                                       for CBP information systems
                                                       should be applied to these
                                                       systems to address the
                                                       conditions noted.




                                                25
       Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                          US Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2007




                                  APPENDIX C 


    STATUS OF PRIOR YEAR NOTICES OF FINDINGS AND 

 RECOMMENDATIONS AND COMPARISON TO CURRENT YEAR 

     NOTICES OF FINDINGS AND RECOMMENDATIONS





                                         26

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                    APPENDIX C
                             US Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2007


STATUS OF PRIOR YEAR CBP IT NOTICES OF FINDINGS AND RECOMMENDATIONS 


   NFR No.                                                           Disposition
                Description
                                                            Closed                 Repeat
                Due to the design of      , certain
                controls can be overridden without
                supervisory approval. For example,
                when a CBP entry specialist attempts to
                liquidate an import entry in      , the
                system displays a warning message,
                indicating that a drawback claim had                       Reissued
 CBP-IT-06-01
                been filed against the import entry.                       See CBP-IT-07-01
                However, entry specialists could
                override the warning message without
                supervisory review and process a refund
                without investigating pending drawback
                claims.

                CBP management has not established
                ISAs for legacy connections with        .
                Additionally, the majority of financial                    Reissued
 CBP-IT-06-02
                institutions connecting with       do not                  See CBP-IT-07-02
                have ISAs.

                CBP management has not performed a
                formal certification and accreditation on
                the             as a whole. Specifically,
                a formal security control assessment and
 CBP-IT-06-03                                                 X
                a formal risk assessment have not been
                performed for components of the


                CBP does not maintain a centralized
                listing of separated contract personnel.
                The only method CBP employs to track
                                                                           Reissued
 CBP-IT-06-04   terminated contractors is the use of a
                                                                           See CBP-IT-07-03
                report of users that had their
                account deleted.

                CBP management has not performed a
                formal review of individuals with
                physical access to the data center.
                Additionally, CBP management has not                       Reissued
 CBP-IT-06-05
                established formal procedures for                          See CBP-IT-07-10
                revoking physical access to
                buildings.

                CBP has not performed a separate
                certification and accreditation for the
 CBP-IT-06-06   applications remaining in the seven           X
                business process areas defined in the
                Administrative Applications C&A.

                                         27
Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                        APPENDIX C
                               US Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2007


   NFR No.                                                               Disposition
                  Description
                                                                Closed                 Repeat
                       does not have an automated
                  mechanism to detect and deactivate
 CBP-IT-06-07     users that have not logged on for 90 days       X
                  per DHS policy.

                  Field offices are not consistently
                  reporting the completion of
                  recertifications at their ports to the OFO
                  headquarters. Email confirmation of
                  completion of         recertifications were
                  not available for Boston, Baltimore,
                                                                               Reissued
 CBP-IT-06-08 
   New Orleans, Miami, and Calgary
                                                                               See CBP-IT-07-24
                  (Canada) field offices, and the Los
                  Angeles field office only provided an
                  email stating that recertification process
                  exists, but did not confirm that
                  recertifications had been completed.

                  We could not obtain the requested
                  evidence of        recertifications from
                  CBP for any of the 44 selected field
                  level ports to determine whether                             Reissued
 CBP-IT-06-09 

                  accounts with sensitive and high-risk                        See CBP-IT-07-31
                  combination of functions are reviewed
                  for appropriateness.

                  Improvements are still needed in CBP’s
                  Incident Handling and Response
                  Capability which may potentially limit
                  CBP’s ability to respond to incidents in
                  an appropriate manner. Specifically, we
                  noted the following issues:
                                                                               Reissued
 CBP-IT-06-10 
   •	                           will not be
                                                                               See CBP-IT-07-12
                      installed on all workstations for the
                      majority of the fiscal year.
                  •	 3 of 8 selected system flaw
                      notifications did not have an
                      associated Service Center ticket.

                  We noted that the process for deletion of
                       accounts for terminated
                  government and contractor personnel
                  may be utilizing erroneous data.
                  Specifically, we noted that the files
 CBP-IT-06-11 
   being sent from the              Security       X

                  group to the      Security team to
                  terminate      accounts of separated
                  employees do not display the true status
                  of employees. The                query
                  producing the separated contractor file

                                         28

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                        APPENDIX C
                               US Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2007


   NFR No.                                                               Disposition
                  Description
                                                                Closed                 Repeat
                  includes individuals with
                  accounts that have been locked after 30
                  days of inactivity. Additionally, the
                  separated government employees file is
                  not accurate as many government
                  employees are separated and return to
                  CBP as contractors. Consequently, the
                       Security Group does not deactivate
                  the accounts for these instances.

                  We noted that 24 out of 45 selected
                  individuals did not have formally
                  documented VPN access authorization
                  forms. Additionally, CBP has not                             Reissued
 CBP-IT-06-12
                  implemented formal procedures for VPN                        See CBP-IT-07-20
                  recertification for the majority of FY
                  2006.

                  CBP System Security does not conduct
                  reviews of powerful system utilities.
                  Specifically, management does not
                                                                               Reissued
 CBP-IT-06-13     review the utilities
                                                                               See CBP-IT-07-17



                  Multiple methods of termination of
                              accounts are used by Systems
                  Security personnel (i.e. electronic mail,
                  phone calls, and termination checklists).
                  We selected 45 terminated employees to
                  determine whether termination
                  checklists had been consistently
                  completed. Of the 45 employees, only
                  30 forms were provided. Of these 30
                                                                               Reissued
 CBP-IT-06-14 
   forms, we noted that 9 out of 30 forms
                                                                               See CBP-IT-07-29
                  did not have supervisory signature,
                  which signifies completion of the form
                  to include notification sent to System
                  Security for removal of logical access to
                  applications. We noted that termination
                  checklists (CF-241) are not consistently
                  completed for separating employees
                  throughout the organization.

                  Backup tapes do not have affixed
                  external labels to indicate the sensitivity                  Reissued
 CBP-IT-06-15
                  of the data contained in the tapes.                          See CBP-IT-07-04

                  CBP System Security does not have                            Reissued
 CBP-IT-06-16
                  formal policies and procedures in place                      See CBP-IT-07-17


                                         29

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                    APPENDIX C
                            US Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2007


   NFR No.                                                           Disposition
                Description
                                                            Closed                 Repeat
                for monitoring powerful/sensitive
                system utilities.

                Improvements still needed in CBP’s
                technical security controls. Related to
                issues reported in FY02, FY03 and
                FY04 findings regarding host and
                network based security system access
                deficiencies, we noted the following:

                •   CBP has confirmed that they will
                    not be implementing the Passfilt.dll
                    system control program to enforce
                    strong passwords or the Windows
                        password protection feature
                    enhancement upgrade referred to as

                •   CBP has not made the configuration
                    changes to the Windows
                                        that was
                    compromised in FY03 intrusion
                    tests.                                                 Reissued
 CBP-IT-06-17   •   Discovered key systems’ domains in                     See CBP-IT-07-35
                    targeting for potential unauthorized                   and CBP-IT-07-36
                    access attempts where we were able
                    to identify major CBP network
                    domains.
                •   Exploited a system vulnerability that
                    had not been corrected.
                •   We confirmed that the number of
                    Domain Administrators on selected
                    Domains has increased since 2005.
                •   ESM identified weak passwords,
                    expired passwords,
                    misconfigurations, and missing
                    patches.
                •   Identified vulnerabilities on an
                    Oracle database which had critical
                    patches missing, weak passwords
                    and auditing is not enabled.

                We noted the following issues related to
                password parameters:

                •                minimum password                          Reissued
 CBP-IT-06-18       length is set to six characters.                       See CBP-IT-07-05
                •                minimum password
                    length is set to six characters.
                •   Password complexity is not set on

                                         30
Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                      APPENDIX C
                              US Customs and Border Protection
                           Information Technology Management Letter
                                      September 30, 2007


   NFR No.                                                             Disposition
                  Description
                                                              Closed                 Repeat
                     the         .
                  •	 Password complexity is not set on
                         .
                  •	 Password complexity is not set on
                     the         .

                  We noted the following issues related to
                  automatic session disconnection:

                  •	 CBP’s policy states that sessions
                     should be automatically
                     disconnected after 30 minutes of
                     inactivity, which is not consistent
                     with DHS’ policy.
                  •	 CBP’s policy states that the
                     workstation should log off from all
                     connections after 5 minutes of
                     inactivity, which is a documentation
                     error. According to applicable
                                                                             Reissued
 CBP-IT-06-19 
      guidance, all system connections do
                                                                             See CBP-IT-07-06
                     not have to be terminated after 5
                     minutes of inactivity on the
                     workstation.
                  •	       sessions are configured to
                     terminate after 60 minutes of
                     inactivity.
                  •	 CBP workstations cannot enforce
                     the activation of a password-
                     protected screensaver after 5
                     minutes of inactivity. The settings
                     can be disabled or changed by
                     individual users.

                       is not configured to disable user
                  accounts after 3 consecutive failed logon
                  attempts.

 CBP-IT-06-20 
   Additionally, per observation, we noted       X

                               accounts were not locked
                  after three consecutive failed login
                  attempts.

                  CBP does not document formal approval
                  of system changes for the       system.
                  We selected 8       regularly scheduled
 CBP-IT-06-21     changes to determine if formal approval       X
                  was given and documented. Per
                  inspection of documentation, we were
                  informed that there is no formally


                                         31

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                       APPENDIX C
                               US Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2007


   NFR No.                                                              Disposition
                  Description
                                                               Closed                 Repeat
                  documented approval for the 8 selected
                  changes.

                  We noted weaknesses related to the
                  deposit and withdrawal of backup tapes:

                  •	 Tape deposit receipts for 2 of 25
                                                                              Reissued
 CBP-IT-06-22 
      selected dates were not available.
                                                                              See CBP-IT-07-14
                  •	 Withdrawal of backup tapes from
                     the off-site storage facility is not
                     logged.

                  CBP System Security does not
                  consistently retain audit logs of powerful
                  mainframe system utilities. Specifically,
                  we selected 25                reports to
                                                                              Reissued
 CBP-IT-06-23 
   determine if powerful               system
                                                                              See CBP-IT-07-11
                  utilities are being consistently logged.
                  We determined that 5 out of the 25
                  selected logs were missing.

                  We determined that               does not
                  have the ability to prevent developers
                  from overwriting existing code in the
                  development environment. The
                  developer is able to extract the code
                  from the development environment and                        Reissued
 CBP-IT-06-24 

                  place it into a personal folder on the                      See CBP-IT-07-07
                  user’s personal computer. If multiple
                  users are modifying a program in their
                  own personal folders they may be
                  overwriting existing changes.

                  Accounts are not deactivated after 90
                  days of inactivity with respect to the
                       system. We determined through
                                                                              Reissued
 CBP-IT-06-25     inspection of audit evidence acquired
                                                                              See CBP-IT-07-15
                  from        that the defined deactivation
                  period is, in fact, 180 days.

                              Security Administrators do
                  not keep audit logs for the prescribed
                  period of time. Audit logs are only
                  available for, at the most, the past three
                  months. Logs are not maintained                             Reissued
 CBP-IT-06-26 

                  beyond the configured space for the log                     See CBP-IT-07-08
                  file. We also noted that
                  Security Administrators do not review
                  audit logs.


                                         32

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                       APPENDIX C
                               US Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2007


   NFR No.                                                              Disposition
                  Description
                                                               Closed                 Repeat
                  We noted that accounts are not
                  deactivated after 90 days of inactivity on
                  the            . We determined that the                     Reissued
 CBP-IT-06-27
                  removal of inactive             accounts                    See CBP-IT-07-09
                  is a manual process.

                              are not fully documented for
                       . The ISA documenting the
                  connection between          America and
                  CBP is currently out of date. In
 CBP-IT-06-28 
                                                  X

                  addition, the connection that exists
                  between Treasury and CBP is currently
                  not officially documented.

                  The documentation of completed initial
                  security awareness training is not
                  properly maintained. We selected
                  security awareness training
                                                                              Reissued
 CBP-IT-06-29 
   documentation for 45 users. Per
                                                                              See CBP-IT-07-19
                  inspection of documentation, 13 of 45
                  did not have security awareness training
                  certificates documented.

                  Contractor access request forms for the
                              could not be adequately
                  tested. We noted that no list of
                  contractors hired to work at CBP is
                                                                              Reissued
 CBP-IT-06-30 
   maintained. Accordingly, audit
                                                                              See CBP-IT-07-03
                  procedures requiring a sample of
                  contractor access request forms could
                  not be requested.

                        has excessive access to emergency
                  processing capabilities. We noted that
                  after an initial authorization to be added
                  to an emergency user table in         ,a
                  user can repeatedly request that their
                  emergency access be reinstated, without
                  being reauthorized. While emergency
                  access in        can expire in no more                      Reissued
 CBP-IT-06-31 

                  than nine days, some users renew their                      See CBP-IT-07-16
                  emergency access every nine days. We
                  noted that CBP has not implemented an
                  effective method of controlling this
                  access, as users are not required to
                  reauthorize their emergency access each
                  time it is requested.

                  Access change audit logs are not                            Reissued
 CBP-IT-06-32
                  reviewed in             . CBP                               See CBP-IT-07-21


                                         33

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                      APPENDIX C
                              US Customs and Border Protection
                           Information Technology Management Letter
                                      September 30, 2007


   NFR No.                                                             Disposition
                  Description
                                                              Closed                 Repeat
                  management does not independently
                  review the changes that are put into
                  place by the              security
                  administrators.

                  Four       administrators share an
                  administrator account on the
 CBP-IT-06-34                                                   X

                  We determined that the following
                  documents have not been formally
                  approved:

                  •

                         – No approval.
                  • Configuration Management Code
                    Migration Procedures for
                                               has no
                    authorization.
                  • Acquisition Planning and Selection                       Reissued
 CBP-IT-06-36 

                    and Development Process has no                           See CBP-IT-07-22
                    authorization.
                  • Configuration Management Code
                    Migration Procedure for Systems,
                    Applications, and Products has no
                    authorization.
                  • Production Management Team
                    Procedures – No approval, no change
                    history.
                  •       Operations: Standard Operating
                    Procedures – No approval.

                  User acceptance testing for
                                             Remedy
 CBP-IT-06-37                                                   X
                  was not formally documented.

                  We noted that one individual with
                        administrator privileges did not
                  have justified access.

                  We noted that there are instances where
                        locks security administrator
 CBP-IT-06-38     accounts due to various reasons that do       X

                  not require documented approvals for
                  reinstating the user account.

                  Additionally, we noted that instances
                  where the       security administrator is
                  new or reinstatement of

                                         34

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                   APPENDIX C
                            US Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2007


   NFR No.                                                          Disposition
                Description
                                                           Closed                 Repeat
                suspended/deleted accounts is needed, a
                documented approval is required. We
                noted that due to a system limitation
                within       , management cannot
                produce a system-generated list of field
                      security administrators that
                differentiates between the two cases.

                We noted that 1 out of 3
                job schedule changes did not have
 CBP-IT-06-39                                                X
                documented approval.




                                         35

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                          US Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2007




                                  Appendix D 



  Management Response to Draft CBP IT Management Letter





                                         36

Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                           APPENDIX D
                          US Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2007




                                         37
Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                 APPENDIX D
                             US Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2007


System Software

CBP concurred with KPMG’s recommendations in this area. Steps have been taken to ensure
that the policies and procedures which have been developed for monitoring audit logs are
fully implemented. POAMs have been implemented for the NFRs and their status is provided
in the attachment.

Service Continuity

CBP concurred with KPMG’s recommendations in this area. Steps have been taken to ensure
appropriate labeling of all computer peripheral media and the formalizing of media
withdrawal requests. POAMs have been implemented for the NFRs and their status is
provided in the attachment.

Application Software Development and Change Control

CBP concurred with KPMG’s recommendations in this area. Separation of roles between
development and production environments has been established.     codes have been
configured for the “Productive” setting, while  configuration management and change
control measures are continually upgraded. POAMs have been implemented for the NFRs
and their status is provided in the attachment.

Thirty-six NFRs that addressed fifty-nine separate recommendations were created during the
FY 2007 audit of which twenty-five were reissues of FY 2006 findings and eleven were new.
Three of the thirty-six have been transferred to non-OIT groups, the Office of Finance (OF)
and the Office of Field Operations (OFO) for remediation, and CBP action plans have been
provided for the remaining thirty-three. For the latter thirty-three, CBP actions have been
totally completed for nineteen and partially completed for an additional six. The corrective
actions for thirty five recommendations have been completed, all of which are awaiting
closure pending KPMG review. POAMs have been implemented for the NFRs and their
status is provided in the attachment.

If you have any questions concerning this response, please contact Judy Wright, Office of
Information and Technology Audit Liaison, at (703) 286-4155.


Attachments:




                                          38
 Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                        APPENDIX D
                                          US Customs and Border Protection
                                       Information Technology Management Letter
                                                  September 30, 2007


                       CBP FY 2007 IT Notices of Finding and Recommendation

                                                                                                     Scheduled        Actual
                                                             CBP Plans to           New     Repeat                                  Risk
  NFR #          Condition           Recommendation                                                  Completion     Completion
                                                             Resolve                Issue   Issue
                                                                                                       Date            Date
                                                                                                                                   Rating

CBP-IT-07-   In FY 2007,             1.Develop and           CBP concurs with                 X                     1A-10/2/2007   High
01           KPMG noted that         implement a             the finding. A                          1B-7/31/2008
             there has been little   management              report is being
             change in the status    review process of a     created in       to
             of this finding.        control override        identify entry
             CBP is developing       report to facilitate    summaries with
             a control override      independent review      refunds of duty
             report which will       of any control          with drawback that
             record all control      overrides that take     have been
             overrides that have     place.                  overridden and
             taken place for a       2.Implement the         paid. The review
             period of time.         appropriate             of the report
             Management stated       controls in        so   provides oversight
             that       will not     that supervisory        of the compliance
             be implemented in       approval is             with warning
             FY 2007. We             required before a       messages on
             concluded that a        control override        returns of refunds
             control mechanism       can occur.              with possible
             to prevent              .                       drawback claims.
             overrides by                                    This oversight will
             specialists without                             help prevent CBP
             supervisory                                     from paying duty
             approval would be                               refunds and also
             an appropriate                                  paying drawback
             technical safeguard                             claims of 99%
             under application                               duty. Supervisors
             controls.                                       will be required to
                                                             review the report
                                                             on a monthly basis
                                                             to control overrides
                                                             of the refunds paid
                                                             that may also have
                                                             drawback claims.
                                                             This new report
                                                             was implemented
                                                             by 30 Sept 2007.
                                                                   requirements
                                                             will include
                                                             management
                                                             oversight
                                                             functionality to
                                                             require supervisory
                                                             approval of the
                                                             override, which
                                                             prevents payment
                                                             of duty refunds on
                                                             entry summaries
                                                             that have drawback
                                                             claims.




                                           39
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                      APPENDIX D
                                          US Customs and Border Protection
                                       Information Technology Management Letter
                                                  September 30, 2007


                                                                                                  Scheduled        Actual
                                                         CBP Plans to            New     Repeat                                Risk
  NFR #          Condition           Recommendation                                               Completion     Completion
                                                         Resolve                 Issue   Issue
                                                                                                    Date            Date
                                                                                                                              Rating

CBP-IT-07-   This is a system-       Identify all        CBP concurs with                  X                     2A-          Medium
02           level finding. A        connections in      the finding. The                         2B-3/31/2008   10/09/2007
             full listing of trade   place with the      Virtual Private
             partners was never      and account for     Network (VPN)
             compiled to assess      each connection     solution pilot from
             the full scope of       with a documented   last year is now
             the status of           ISA.                operational as of
             connections to                              April 30, 2006. All
                     KPMG                                new users are
             noted that a                                required to use the
             complete and                                VPN solution. All
             accurate listing is                         legacy ‘dial-up’
             still not                                   connections are
             maintained. Of                              scheduled for
             those connections                           migration to the
             that have been                              VPN solution by
             accounted for,                              the end of the fiscal
             KPMG noted that                             year. CBP will
             only 7% of                                  also continue to
             identified legacy                           utilize the new
             connections had an
                   that has not                                  process on
             expired. KPMG                               all identified
             does note that a                            connections. The
             VPN solution is                             NFR stated, "Of
             being phased in                             those connections
             and legacy                                  that have been
             connections are                             accounted for,
             being phased out                            KPMG noted that
             and that significant                        only 7% of
             progress is being                           identified
             made to move all                            connections had an
             existing trade                              ISA that has not
             partners to the new                         expired. The
             VPN solution, in                            correct number is
             which they will                             currently 35%.
             obtain an ISA                               The VPN
             documenting the                             migration with the
             connection.                                 use of the
                                                         process will result
                                                         in an efficient,
                                                         maintainable, and
                                                         repeatable solution
                                                         that enhances both
                                                         e-Government and
                                                         security.




                                           40
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                      APPENDIX D
                                         US Customs and Border Protection
                                      Information Technology Management Letter
                                                 September 30, 2007


                                                                                                    Scheduled      Actual
                                                           CBP Plans to            New     Repeat                              Risk
  NFR #          Condition          Recommendation                                                  Completion   Completion
                                                           Resolve                 Issue   Issue
                                                                                                      Date          Date
                                                                                                                              Rating

CBP-IT-07-   This is a              Continue work          CBP concurs with                  X                   3A-          High
03           component-level        towards                the finding.                                          10/12/2007
             finding. CBP does      implementation of      a: CBP is                                             3B-
             not maintain a         a contractor           continuing to work                                    10/12/2007
             centralized listing    employee tracking      towards the                                           3C-
             of contract            system.                implementation of                                     10/12/2007
             personnel,             1.Deactivate all       a contractor
             including              systems access of      employee tracking
             employment status.     terminated             system.
             The only method        contractors            b/c: CBP is
             CBP employs to         immediately upon       presently in the
             track terminated       separation from        process of
             contractors is the     CBP.                   identifying
             use of a report of     2.Periodically         requirements for
             users that had their   distribute a listing   the automated
             mainframe              of terminated          contractor tracking
             accounts deleted.      contract personnel     system. The
             KPMG cannot            to information         primary purpose of
             acknowledge this       system                 the tracking system
             list as                administrators so      will be to facilitate
             representative of      they remove user       deactivation of
             all terminated         access and             separated
             contractors, since     periodically assess    contractor system
             terminated contract    contractor access to   accesses. The
             personnel may not      CBP systems.           tracking system
             have                                          will also have the
             access or their                               capability to create
             access was not                                a listing that
             removed after their                           system
             termination.                                  administrators can
                                                           use to periodically
                                                           remove and assess
                                                           contractor access to
                                                           CBP systems. It is
                                                           anticipated that the
                                                           above actions will
                                                           occur on or before
                                                           September 30,
                                                           2007.




                                           41
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                    APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                  Scheduled      Actual
                                                          CBP Plans to           New     Repeat                                  Risk
  NFR #          Condition         Recommendation                                                 Completion   Completion
                                                          Resolve                Issue   Issue
                                                                                                    Date          Date
                                                                                                                                Rating

CBP-IT-07-   This is a             KPMG reviewed          CBP concurs with                 X                    9/28/2007        Low
04           component-level       the POA&M and          the findings.
             finding. KPMG         believes that work     However as of this
             confirmed that in     should continue to     date, we do not
             FY 2007, backup       develop a method       have a method of
             tapes do not have     for labeling tapes     labeling the tapes
                                                          that does not
             external labels       that will not
                                                          require the use of
             affixed in order to   interfere with the
                                                          adhesives. We had
             indicate the          tape library           acquired the waiver
             sensitivity of the    machinery.             because of the
             data contained in                            potential harm to
             the tapes.                                   our
             Instead,
             containers in                                       by affixing
             which the tapes                              adhesive in close
             are stored are                               proximity to the
             labeled with                                 tape media. We
             media labels.                                will continue to
             Currently, CBP                               research other
             has obtained a                               methods and
             waiver which                                 technologies of
                                                          tape labeling that
             waives the
                                                          do not use
             responsibility to
                                                          adhesives.
             label media
             directly.
             However, CBP
             remains non-
             compliant and the
             risk still remains.
CBP-IT-07-   This is a system-     1.Configure            CBP concurs with                 X                   5A           –   High
05           level finding.        password policies      the finding.                                         1/8/2008
             KPMG noted the        to reflect those set   a. CBP is currently                                  5B           –
             following issues      forth in CBP and       working to                                           1/3/2008
             related to            DHS guidance.          implement system
             password              2.Configure            and application
                                                          software changes
             parameters:                  password
                                                          to support DHS
             -                     policies to reflect
                                                          password standards
             minimum               those set forth in     – targeted
             password length       CBP and DHS            completion July
             is set to six         guidance.              2007.
             characters                                   b. CBP is currently
             - Password                                   implementing
             complexity is not
             set on the                                   with this roll out
                                                          set to be completed
                                                          by 12/31/07. As
             minimum                                      user accounts are
             password length                              migrated, complex
             is set to six                                passwords based
             characters                                   on DHS standards
                                                          are implemented.
             - Password
                                                          Current
             complexity is not
                                                          compensating
             set on the                                   controls that are in
                                                          place: Secure
                                                          network and

                                                                        on
                                                          Primary domain
                                                          controllers.




                                           42
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                     APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                   Scheduled      Actual
                                                          CBP Plans to            New     Repeat                              Risk
  NFR #          Condition         Recommendation                                                  Completion   Completion
                                                          Resolve                 Issue   Issue
                                                                                                     Date          Date
                                                                                                                             Rating

CBP-IT-07-   This is a system-     1.Modify CBP’s         CBP concurs with                  X                   6A-          Medium
06           level finding.        automatic session      the findings.                                         7/11/2007
             KPMG noted the        disconnection          a. Appendix E, E 5                       6C-          6B-
             following issues:     policy so that it is   Automatic Session                        3/31/2008    7/11/2007
             - CBP’s policy        consistent with        Lockout of CBP
             stated that           DHS policy.            Information
                                                          Systems Security
             sessions should       2.Modify CBP
                                                          Policies and
             automatically         policy to reflect
                                                          Procedures
             disconnect after      that only the          Handbook, CIS HB
             30 minutes of         password-              1400 05C will be
             inactivity, which     protected              revised to state that
             is not consistent     screensaver must       “any mainframe
             with DHS policy.      be activated after     session that has
             - CBP’s policy        5 minutes of           remained idle for at
             stated that the       inactivity.            least 20 minutes
             workstation           3.Continue             will disconnect
             should log off        deployment of          automatically.”
             from all                                     b. Section 5.5.1
             connections after     and Windows            Desktop Computer
             5 minutes of          2003 in order to       Practices of CBP
             inactivity.           establish and          Information
                                                          Systems Security
             According to          maintain group
                                                          Policies and
             applicable            policy and
                                                          Procedures
             guidance, all         enforce password-      Handbook, CIS HB
             system                protected              1400 05C, will be
             connections do        screensaver            revised to state that
             not have to be        settings on the        screensavers
             terminated after 5    workstations.          should activate
             minutes of                                   after not more than
             inactivity on the                            5 minutes of
             workstation.                                 inactivity.
             - CBP                                        c. CBP will
             workstations                                 continue the
             could not enforce                            deployment of
             the activation of a                          Active Directory
             password-                                    and Windows 2003
                                                          Server in order to
             protected
                                                          set up group policy
             screensaver after
                                                          and enforce
             5 minutes of                                 password
             inactivity. The                              protected
             settings could be                            screensaver
             disabled or                                  settings. Target
             changed by                                   due date December
             individual users.                            31, 2007.




                                           43
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                        APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                  Scheduled          Actual
                                                         CBP Plans to            New     Repeat                                     Risk
  NFR #          Condition         Recommendation                                                 Completion       Completion
                                                         Resolve                 Issue   Issue
                                                                                                    Date              Date
                                                                                                                                   Rating

CBP-IT-07-   This is a system      CBP management        CBP Concurs with                  X                        10/18/2007     Medium
07           level finding.        implement             the NFR.

             KPMG
                 procedures which      Management is 

             determined that 
     prevent the           developing two
                         does      overwrite of          options for
             not have the          development code      resolving this NFR.
                                                         Once management
             ability to prevent    in the
                                                         selects the option
             developers from       development
                                                         and identifies the
             overwriting           environment.          necessary funding,
             existing code in                            work can begin
             the development                             with an estimated

             environment. The 
                          completion date of
             developer is able                           12/31/07.
             to extract the code
             from the
             development
             environment and
             place it into a
             personal folder on
             the user’s
             personal
             computer. If
             multiple users are
             modifying a
             program in their
             own personal
             folders they may
             be overwriting
             existing changes.
CBP-IT-07-   This is a system-     1.The                 CBP concurs with                  X      8A           -                   Medium
08           level finding. A      system be             the finding. This is                     4/30/2008        8B - 1/3/2008
             solution has not      configured to         an ongoing project
             been implemented      maintain audit        that is currently on
             to maintain           logs and track        hold awaiting
                    audit logs     security events       funds to purchase
                                                         equipment. Once
             for an appropriate    according to CBP
                                                         the new equipment
             period of time.       and DHS policies.
                                                         is in place, then all
             Audit logs are not                          the servers will be
             being reviewed        2.
                                   audit logs be         configured to store
             for security                                logs centrally.
             violations for the    reviewed on a
                                                         Plans and
                         .         regular bases,
                                                         procedures will be
                                   according to CBP      provided to
                                   and DHS policy,       administrators on
                                   to detect potential   reviewing log
                                   security events.      activity.
                                                         Compensating
                                                         controls that are
                                                         currently in place
                                                         include some audit
                                                         logs from
                                                         environment that
                                                         are currently stored
                                                         in a central
                                                         location


                                                         that are installed on
                                                         our primary
                                                         domain controllers.




                                           44
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                            APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                            Scheduled      Actual
                                                      CBP Plans to         New     Repeat                              Risk
  NFR #          Condition        Recommendation                                            Completion   Completion
                                                      Resolve              Issue   Issue
                                                                                              Date          Date
                                                                                                                      Rating

CBP-IT-07-   This is a system-                        CBP concurs with               X                    1/3/2008    High
09           level       finding. Administrators      the NFR. For 

             KPMG noted that 
 implement a

             accounts are not 
 control to            CBP will change
             deactivated          automatically       the automatic
             automatically        disable or remove   disabling of
                                                      inactive accounts
             after 30 days of accounts after
                                                      from 90 days to 30
             inactivity.          thirty days of
                                                      days. Target due
             Accounts         are inactivity in the   date – 8/31/07
             disabled         for system.
             inactivity once a
             month using a
             manually initiated
             job.




                                           45

  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                   APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                 Scheduled      Actual
                                                         CBP Plans to           New     Repeat                              Risk
  NFR #          Condition         Recommendation                                                Completion   Completion
                                                         Resolve                Issue   Issue
                                                                                                   Date          Date
                                                                                                                           Rating

CBP-IT-07-   This is a             1.Continue to         CBP concurs with                 X                   10A-         Medium
10           component level       work towards          the finding.                                         11/28/2007
             finding. KPMG         improving the         a. CBP is                                            10B-
             reviewed the          recertification       continuing to work                                   11/28/2007
             procedures and        process.              towards improving                                    10C-
             evidence of the                             the recertification                                  11/28/2007
                                   2.Require an          process. All
             most recent
                                   access request        corrective actions
             recertification
                                   form before           recommended by
             performed for                               KPMG have been
             physical access to    access is granted
                                   to the data center,   implemented to
             the data center.                            improve the
             KPMG noted the        as stated in
                                                         recertification
             following:            policies and
                                                         process. CBP
             - Two people had      procedures.           implemented a new
             access that was       3.Remove              measure in May
             not appropriately     terminated            2007 requiring the
             documented with                             use of the “Two
                                   employees’
             an approved                                 Person Rule” to
                                   access
             access request                              ensure that
                                   immediately upon      oversights and
             form.                 termination of the
             - One terminated                            human error do not
                                   employee.             occur.
             employee retained
                                                         b. CBP continually
             access after the
                                                         uses
             recertification.
             - One user was                                               for
             marked to be                                the requesting and
             removed as a                                granting of RA
             result of the                               access. In the
             recertification but                         instance cited, a
             was not removed                                      was not
             appropriately.                              required for the
                                                         security guard
                                                         supervisor because
                                                         he requires access
                                                         for emergency
                                                         reasons and cannot
                                                         be denied
                                                         Computer Room
                                                         access. CBP will
                                                         ensure that a
                                                                  is
                                                         submitted to
                                                         owners in future
                                                         such cases as a
                                                         courtesy measure.
                                                         c. CBP currently
                                                         has documented
                                                         procedures within
                                                         the



                                                         Handbook, V. 1,
                                                         dated March 2007,
                                                         as well as CBP
                                                         directives that
                                                         govern the
                                                         separation of CBP
                                                         employees and
                                                         contractors from
                                                         CBP service.




                                           46
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                  APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                Scheduled      Actual
                                                        CBP Plans to           New     Repeat                              Risk
  NFR #          Condition         Recommendation                                               Completion   Completion
                                                        Resolve                Issue   Issue
                                                                                                  Date          Date
                                                                                                                          Rating

CBP-IT-07-   This is a system-     1.Maintain           CBP concurs with                 X      11A-                      Medium
11           level finding.        complete and         this finding. Per                       6/30/2008    11B-
             CBP System            accurate records     current policy,                                      1/28/2007
             Security does not     of                   printed reports are
             consistently retain   logs according to    kept for 90 days.
             audit logs of         CBP document         The Security
                                                        Operations
             powerful              retention policy.

             utilities. KPMG       2.Regularly
             reviewed the          review the
                                                logs    team will ensure
             existence of                               that all audit logs
                           logs    for suspicious
                                                        are retained for the
             for a selection of    activity according
                                                        90-day period.
             dates and noted       to CBP policy.       Log Reviews and
             that logs were not                         the resultant
             available for a                            summary status
             series of dates.                           reports have not
             KPMG noted that                            been done by the
             within a 90 day                                         ISSO
             window, complete                           due to the volume
             logs were                                  of records to
                                                        review. The
             available for all
                                                        team is working on
             selected dates
                                                        creating a Web-
             except one. For                            based application
             the year long                              that automates the
             window, 17                                 generation of audit
             summary reports                            log summary
             were unavailable.                          reports. This new
                                                        application will
                                                        enable the ISSO to
                                                        quickly generate a
                                                        Log Review
                                                        summary report.
                                                        Anticipated
                                                        completion date of
                                                        this new Web-
                                                        based application is
                                                        October, 2007.
                                                        Online audit logs
                                                        are maintained for
                                                        a period of seven
                                                        (7) years per the
                                                        current Audit
                                                        Retention Policy,
                                                        CBP HB 1400-05C
                                                        of the Security
                                                        Handbook.




                                           47
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                  APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                  Scheduled      Actual
                                                          CBP Plans to           New     Repeat                              Risk
  NFR #          Condition         Recommendation                                                 Completion   Completion
                                                          Resolve                Issue   Issue
                                                                                                    Date          Date
                                                                                                                            Rating

CBP-IT-07-   This is a             CBP ensure that        CBP concurs with                 X                   2/19/2008    Medium
12           component-level                         is   the NFR.
             finding. As           installed on all       The solution is a
             identified in prior   workstations           work in progress to
             year issues           under the control      be implemented by
             reported in FY        of CBP.                October 1, 2007:
                                                          - Windows XP
             2003, FY 2004,
                                                          standard image
             FY 2005 and FY
                                                          incorporates
             2006, KPMG
             noted that                                   functionality.
             improvements are                             - Systems installed
             still needed in                              with this image
             CBP’s Incident                               will be patched
             Handling and                                 according to CBP
             Response                                     standards.
             Capability which                              - CBP has an
             may potentially                              auto-remediation
             limit CBP’s                                  capability to detect
             ability to respond                           systems in
             to incidents in an                           Windows Domains
             appropriate                                  that are issued
                                                          dynamic IP
             manner. In FY
                                                          addresses.
             2007, we noted
                                                           - CBP will detect
             that                                         non-
                        will not                                    and will
             be installed on all                          install
             workstations for                                        Code
             the majority of                              based on Domain
             the fiscal year.                             Member and
                                                          dynamic (or
                                                          leased) IP Address
                                                          Targeted
                                                          completion
                                                          October 1, 2007.
                                                          Continual
                                                          improvement of
                                                          this methodology is
                                                          anticipated as this
                                                          capability is
                                                          deployed.




                                           48
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                                Scheduled      Actual
                                                        CBP Plans to           New     Repeat                              Risk
  NFR #          Condition        Recommendation                                                Completion   Completion
                                                        Resolve                Issue   Issue
                                                                                                  Date          Date
                                                                                                                          Rating

CBP-IT-07-   This is a            1.Work to             CBP concurs with        X               13A-                      Medium
13           component-level      eliminate the use     this finding.                           4/30/2008
             finding. During      of local              a. Mitigations are                      13B-
             test work around     workgroups and        currently in place                      3/29/2008
             the application of   include all CBP       through a group
             security patches,    workstations in a     policy,
                                                        workstations in
             KPMG noted that      CBP administered
             a complete listing   domain.
                                                        are required to run
             of workstations is                         the
             not maintained by    2.Compile and
                                  regularly maintain                health"
             System Security.                           code Additionally,
             We noted that        a full and accurate
                                                        the CBP desktop
             System Security      listing of CBP
                                                        build contains pre-
             does not have the    workstations and      staged
             ability to quickly   use this list to                 health
             compile a listing    monitor and           code and antivirus
             of all               maintain patch        software that will
             workstations         levels for all CBP    check for updates
             under CBP’s          workstations.         daily.
             ownership.                                 b. Corrective
                                                        action will be taken
                                                        to develop, test,
                                                        and implement a
                                                               -integrated
                                                        system that will
                                                        determine desktop
                                                        network
                                                        identification.
                                                        Target completion
                                                        date (for
                                                        implementation):
                                                        December 31,
                                                        2007.
                                                        The solution
                                                        requires an updated
                                                        policy and
                                                        technical change.
CBP-IT-07-   This is a            CBP monitor tape      CBP concurs with                 X                   11/28/2007    Low
14           component-level      withdrawal            the finding and will
             finding. KPMG        requests that         take the following
             noted that tape      come from             actions:
             withdrawal           employees and         1.Create an online
             requests are not     log these requests    log for
                                                        unscheduled tape
             documented.          to ensure that tape
                                                        recalls from the
                                  withdrawals are
                                                        offsite storage
                                  being completed       facility
                                  appropriately.

                                                                This
                                                        process will be
                                                        completed by July
                                                        31, 2007.
                                                        2.

                                                                    will be
                                                        updated to reflect
                                                        the new logging
                                                        procedure. This
                                                        update will be
                                                        completed by July
                                                        31, 2007.




                                           49
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                  APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                Scheduled      Actual
                                                         CBP Plans to          New     Repeat                                  Risk
  NFR #          Condition         Recommendation                                               Completion   Completion
                                                         Resolve               Issue   Issue
                                                                                                  Date          Date
                                                                                                                              Rating

CBP-IT-07-   This is a system-     2.Change the          CBP concurs with                X                   15A-              High
15           level finding.        configuration for     this finding. ACS                                   11/28/2007
             KPMG noted that            to disable       Security will work                                  15B-
             the        is         accounts after 30     with the                                            11/28/2007
             currently             days of inactivity.   programmers to
             configured to                               have the ACS code
                                   2.Change the job      changes made,
             disable accounts
                                   schedule for the      tested, and user-
             after 90 days of
                                   deactivation          approved in order
             inactivity.                                 to comply with the
             KPMG also noted       procedure to run
                                   on a daily basis to   30-day inactivity
             that the job is                             rules per DHS
             configured to run     minimize the time
                                                         4300A Sensitive
             weekly, which         difference
                                                         Systems Handbook
             does not comply       between the           v3.3. Estimated
             with the              inactivity period     target date for
             requirement for       and deactivation      completion of the
             automatic             time.                 coding changes is
             disabling of                                January 31, 2008
             accounts.
CBP-IT-07-   This is a system-     1.Require             CBP concurs with                X                   16A          -   Medium
16           level finding.        supervisory           this finding. After                    16B -        9/6/2007
             KPMG noted that       approval each         careful review of                      5/15/2008
             the        has been   time a user           the current
             adjusted to limit     requires              Emergency Access
             active emergency      activation of         Policy, CBP has
                                                         decided to update
             access to 24 hours    emergency access
                                                         the language to be
             after the request.    abilities.
                                                         compliant with the
             KPMG notes                                  recommendations.
             however that the      2.Perform regular
                                   re-certifications     Once the policy
             emergency table                             has been updated,
             is still being used   of the emergency
                                                         CBP will take steps
             and that              access table to
                                                         to implement
             administrator or      ensure persons        procedures to
             supervisory           with the              satisfy the
             approval is not       capability to         recommendations
             required each         request
             time emergency        emergency access
             access is             need to remain on
             activated.            the emergency
                                   access table.




                                           50
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                  APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                              Scheduled          Actual
                                                       CBP Plans to          New     Repeat                                  Risk
  NFR #          Condition         Recommendation                                             Completion       Completion
                                                       Resolve               Issue   Issue
                                                                                                Date              Date
                                                                                                                            Rating

CBP-IT-07-   This is a system-     CBP management      As of August 1,                 X                       11/28/2007   Medium
17           level finding.        implement           2007, the
             CBP System            policies and                      ISSO
             Security does not     procedures that     has implemented
             conduct reviews       have been           policies and
             of powerful           developed for       procedures that
                                                       have been
             system utilities.     monitoring and
                                                       developed for
             Specifically, the     reviewing logs of
                                                       monitoring and
             utilities             powerful system     reviewing logs of
                                   utilities for       powerful system
                                   suspicious          utilities for
                                   activity.           suspicious
             are not reviewed                          activities. These
             by management.                            logs are identified
             Additionally,                             in NFR-07-11
             while procedures                          recommendation b.
             are now in place                          The
             for review of                             ISSO will continue
             these logs, these                         to review the logs
             procedures were                           and report any
             not in place for                          anomalies as they
                                                       occur.
             the majority of
             the fiscal year.
CBP-IT-07-   This is a system-     1.Develop formal    CBP will               X               18A          -                Medium
18           level finding.        procedures for      determine a                            9/1/2008
             KPMG noted            recertifying        method for                             18B -
             there are currently         accounts      conducting semi-                       9/1/2008
             no procedures in      and access to       annual re-
             place for the         shared data.        certifications of
             completion of
                                   2.Perform regular   accounts. This will
             semi-annual re-
                                   re-certifications   involve analysis to
             certifications of                         determine the most
                                   of
                                   accounts and        feasible tools and
             accounts. KPMG                            methods for
             also notes that a     access to shared
                                                       identifying the
             recertification of    data as required
                                                       accounts, notifying
                                   by developed        the users, and
             accounts is not       procedures.         validating that the
             performed on a                            accounts are still
             semi-annual basis.                        valid. The analysis
                                                       will be completed
                                                       by October 2007
                                                       with the
                                                       implementation
                                                       and first
                                                       recertification to
                                                       occur by
                                                       September 2008.




                                           51
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                   APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                               Scheduled          Actual
                                                        CBP Plans to          New     Repeat                                  Risk
  NFR #          Condition        Recommendation                                               Completion       Completion
                                                        Resolve               Issue   Issue
                                                                                                 Date              Date
                                                                                                                             Rating

CBP-IT-07-   This is a            1.Ensure that         CBP concurs with                X      19A          -                 Low
19           component level      security              the finding.                           3/31/2008
             finding. KPMG        awareness             -CBP will work                         19B -
             noted that the       training is           towards ensuring                       6/1/2008
             completion of        completed in a        the on-line Virtual
             security             timely manner by      Learning Center
                                                        (VLC) is the
             awareness            all employees
                                                        primary tool for
             training is not      with access to
                                                        completing and
             appropriately        CBP information       tracking Security
             tracked at CBP.      systems.              Awareness
             KPMG noted that                            Training. Issues
             out of a selection   2.Continue to
                                                        concerning
             of 45 CBP            work towards
                                                        possession of a
             employees, one       implementing          valid CBP email
             employee             online training for   address to register
             maintained access    all CBP personnel     in the VLC should
             to       without     to facilitate         be resolved when
             having completed     automated             the system is
             the refresher        tracking of the       upgraded on
             security             completion of         8/3/07. This
             awareness            security              upgrade allows the
                                  awareness             ability to create
             training course.
                                  training.             temporary accounts
             The individual
                                                        that will merge
             completed an                               with the
             awareness course                           employees’
             that was not the                           permanent
             CBP-wide                                   accounts once
             security                                   established.
             awareness                                   - A conversion
             training required                          from Lotus to
             for all CBP                                Active Directory
             employees.                                 Exchange,
                                                        scheduled for
                                                        completion by
                                                        12/31/07, should
                                                        resolve additional
                                                        VLC account
                                                        issues.




                                                                     will
                                                        work with the OTD
                                                        to establish
                                                        controls that
                                                        prevent employees
                                                        from completing
                                                        other Security
                                                        Awareness courses
                                                        if the basic course
                                                        date is expired or
                                                        incomplete.




                                           52
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                     APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                 Scheduled          Actual
                                                          CBP Plans to          New     Repeat                                  Risk
  NFR #          Condition         Recommendation                                                Completion       Completion
                                                          Resolve               Issue   Issue
                                                                                                   Date              Date
                                                                                                                               Rating

CBP-IT-07-   This is a             1.Automate the         CBP concurs with                X      20A          -                Medium
20           component level       recertification        the finding.                           4/30/2008
             finding. KPMG         process in order       -CBP will research                     20B          -
             noted several         to remove the          ways to improve                        4/30/2008
             access control        need for after-the-    and automate the                       20C -
             weaknesses for        fact recertification   current manual                         4/30/2008
                                                          recertification
             the       solution    via methods not
                                                          process. The
             during test work.     documented in
                                                          recertification
             Specifically,         recertification        procedures will be
             KPMG noted:           procedures             documented and
             - The        sever    (email, verbal,        updated as needed.
             does not maintain     etc.)                  -CBP will research
             information on                               solutions with
             user account          2.Configure the        vendors and
             creation and                servers to       network
             inactivity and        store information      engineering to
             therefore cannot      about the creation     improve reporting
             terminate inactive    dates and activity     modules and
             accounts or           of users in order      configurations to
             provide audit         to be able to          the       server to
             information           properly identify      store and archive
                                   inactive accounts      data about the
             regarding the
                                   and allow for          users. Procedures
             creation of
                                   their deletion.        for deactivating
             accounts,                                    accounts at the end
             - Accounts that       3.Improve the          of the
             did not recertify     process of             recertification
             during the            deactivating           process will be
             recertification       accounts at the        improved.
             time period or        end of the             -Pending an
             were marked for       recertification        automated solution,
             deletion during       period and ensure      the following
             the recertification                          mitigation is being
                                   that all accounts
             period remained                              pursued to improve
                                   that should be
             active on the                                the
                                   removed from the       recertification
             system after the      system are
             accounts should                              process by making
                                   removed.               improvements to
             have been
                                                          the Access Request
             deactivated by
                                                          System.
             administrators,
             - Procedures for
             recertifying
             accounts were not
             fully implemented
             and accounts were
             recertified by
             means beyond
             those identified in
             documented
             procedures.




                                           53
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                 APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                               Scheduled      Actual
                                                      CBP Plans to            New     Repeat                              Risk
  NFR #          Condition        Recommendation                                               Completion   Completion
                                                      Resolve                 Issue   Issue
                                                                                                 Date          Date
                                                                                                                         Rating

CBP-IT-07-   This is a system     CBP formalize       CBP developed                     X                   21A-         Medium
21           level finding.       procedures for      and approved the                                      1/15/2008
             KPMG noted that      reviewing these           Security                                        21B-
             when changes to a    access change       Audit Log                                             1/25/2008
             user’s access are    logs and that       Procedure (6-21-
             performed in         review of these     2007). The
                                                      ISSO reviews the
                        the log   logs is
                                                      logs on a periodic
             of these events is   implemented on a
                                                      basis (4-5 times per
             not regularly        periodic basis as   week) to determine
             reviewed by          set forth in        potential security
             personnel            criteria.           violations and
             independent from                         notifies the
             those individuals                        of any anomalies
             who made the                             detected.
             changes.                                 For       , a process
                                                      is in place, and
                                                      reviews have
                                                      begun. Schedules
                                                      for reviews are
                                                      being developed.




                                           54
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                            APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                            Scheduled      Actual
                                                      CBP Plans to         New     Repeat                              Risk
  NFR #          Condition        Recommendation                                            Completion   Completion
                                                      Resolve              Issue   Issue
                                                                                              Date          Date
                                                                                                                      Rating

CBP-IT-07-   This is a            CBP implement       CBP concurs with               X                   10/4/2007     Low
22           component level      procedures in OIT   the NFR. The
             finding. KPMG        divisions to
             noted that           perform a review
             documents            of all
             identified in FY     documentation to
             2006 as not          update,
                                                             document
             having               consolidate and
                                                      cited in this NFR
             documented           approve the         has been corrected
             approval or          documented          and appropriate
             approval dates       procedures in use   approval
             still lack these     by operational      information
             required             personnel.          obtained. The
             approvals and                            other documents
             approval or                              cited in this NFR
             effective date.                          will be corrected
             Specifically,                            and appropriate
             KPMG noted that:                         approval
             -                                        information
                                                      obtained by
                                                      September 30,
                                                      2007. CBP will
             – No approval for
                                                      promulgate
             majority of fiscal
                                                      established formal
             year                                     approval processes
             - Configuration                          and requirements
             Management                               throughout the OIT
             Code Migration                           Program Offices
             Procedures for                           and Divisions by
                  – No                                September 30,
             approval or                              2007.
             effective date
             - Configuration
             Management
             Code Migration
             Procedures for
                   – No
             approval date or
             effective date
             - Production
             Management
             Team Procedures
             – No approval, no
             change history
             -
             Operations:
             Standard
             Operating
             Procedures – No
             approval




                                           55
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                               APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                               Scheduled      Actual
                                                        CBP Plans to          New     Repeat                              Risk
  NFR #          Condition         Recommendation                                              Completion   Completion
                                                        Resolve               Issue   Issue
                                                                                                 Date          Date
                                                                                                                         Rating

CBP-IT-07-   3 out of 5 selected   CBP/OIT              CBP concurs with       X                            1/28/2008    Medium
23                 Emergency       management           the finding but
             Changes did not       consistently apply   does not agree to
             have post-            emergency            the
             implementation        change               recommendation.
             Executive             management post-     Emergency
                                                        changes in
             Approval as           implementation
                                                        continue to be
             required by the       procedures to all
                                                        made according to
             new OIT                     emergency      OIT procedures
             emergency             changes.             that require
             change                Furthermore,         executive
             procedures.           post-                management
                                   implementation       approval prior to
                                   procedures should    implementation
                                   be regularly         rather than after.
                                   reviewed and         Over the past six
                                   provide regular      months, OIT has
                                   feedback to          conducted a
                                   change               thorough review of
                                   administrators to    its change
                                   determine any        management
                                                        processes,
                                   post-
                                                        including
                                   implementation
                                                        emergency
                                   steps that may       changes. This
                                   have been missed     review resulted in
                                   due to the           the new OIT
                                   expeditious nature   Change
                                   of emergency         Management
                                   changes.             Handbook (OIT
                                                        CM 2.17), which
                                                        became effective in
                                                        August, 2007.
CBP-IT-07-   The        re-        1.Apply              Transferred                     X      12/11/2008                Medium
24           certification         procedures           remediation to OF.
             process has           outlined in the
             several               newly distributed
             weaknesses. Of        memorandum
             the 45 selected       from Office of
             ports, none had       Field Operations
             formally              dated April 27,
             documented            2007
             communication         2.Consistently
             between the           document results
             responsible DFO       of re-
             and OFO               certifications at
             headquarters as       the port level and
             directed by the       maintain
             FY 2006               documentation
             memorandum put
             out by Office of
             Finance




                                           56
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                  APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                                Scheduled      Actual
                                                        CBP Plans to           New     Repeat                                  Risk
  NFR #          Condition        Recommendation                                                Completion   Completion
                                                        Resolve                Issue   Issue
                                                                                                  Date          Date
                                                                                                                              Rating

CBP-IT-07-   This is a system-    1.Formally            CBP has appointed       X                            25A          -    Low
25           level finding.       document the          a full-time ISSO                                     9/6/2007
             KPMG noted that      appointment of        for the                                              25B          -
             the                  the                   to perform the                                       9/6/2007
             does not have an     Interim ISSO with     duties stated in the
             ISSO, but has        a formal              designation letter
                                                        in accordance with
             been assigned an     designation letter,
                                                        information
             interim ISSO.        and
                                                        technology security
             KPMG noted that      2.Appoint a full      regulations and
             the interim ISSO     time ISSO for the     requirements. The
             is not formally                  and       audit
             documented as        document that         recommended
             the                  appointment with      actions have been
             ISSO.                a formal              completed.
                                  designation letter.
CBP-IT-07-   This is a system-    CBP perform           CBP has already         X                             1/25/2008       Medium
26           level finding.       periodic review of    developed and
             KPMG noted that      access violation      approved the
             evidence of the      logs.                                  Log
             review of these                            Procedure. The
             violation logs for                                      is
                                                        reviewing the
             6 of 25 dates were
                                                        access change logs
             not available for
                                                        on a periodic basis
             review.                                    (4-5 times per
                                                        week) to determine
                                                        potential security
                                                        violations. The
                                                        reports of the
                                                        access change logs
                                                        will be retained by
                                                        the              for
                                                        a period of one
                                                        year. In addition to
                                                        immediately
                                                        notifying the
                                                        CSIRC of any
                                                        confirmed security
                                                        anomalies, the
                                                                     will
                                                        also provide to the
                                                        ISSM a monthly
                                                        report of all
                                                        security anomalies
                                                        identified and
                                                        researched.




                                           57
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                 APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                               Scheduled      Actual
                                                       CBP Plans to           New     Repeat                              Risk
  NFR #          Condition        Recommendation                                               Completion   Completion
                                                       Resolve                Issue   Issue
                                                                                                 Date          Date
                                                                                                                         Rating

CBP-IT-07-   This is a system-    1.Develop and        CBP concurs with        X               27A-                       High
27           level finding.       implement            this finding. In                        5/15/2008
             KPMG noted that      procedures to        response to a                           27B-
             authorizations are   restrict access to   related NFR (CBP-                       5/15/2008
             not being                                 IT-07-16), CBP
             maintained for       administrative       has already agreed
                                                       to revise the
             personnel that       capabilities, and
                                                       applicable policy.
             have                 2.Require
                                                       With the revised
             administrator        documented           policy, CBP will
             access to            authorization        also develop new
                                  requests and         processes to
                                  approval for each    control and
                                  person requiring     document access
                                  access to the        for each individual
                                  mainframe            requiring
                                  administrative       mainframe
                                  capabilities.        administrative
                                                       capabilities.
                                                       The target
                                                       completion date for
                                                       the policy revision
                                                       was set as
                                                       September 30,
                                                       2007. The target
                                                       date for the new
                                                       process and
                                                       procedures is
                                                       December 31,
                                                       2007.
CBP-IT-07-   This is a system-    1.Develop and        CBP will                X                            28A-         Medium
28           level finding.       implement access     implement a                                          10/25/2007
             KPMG noted that      policies and                       that                                   28B-
             access policies      procedures for the   the Government                                       10/25/2007
             and procedures                   to       Supervisor will fill
             have not been        document formal      out and sign to get
                                                       a new
             formally             methods for
                                                                or change
             documented for       requesting and
                                                       an active account.
             the            .     approving access     The
             KPMG also noted      for the              implementation of
             that access                               the form will be by
             authorization        2.Require            September 15,
             forms were not       documented           2007.
             completed for 27     authorization
             out of 45 accounts   requests and
             created in FY        approval for each
             2007.                person requiring
                                  access to the




                                           58
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                               APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                              Scheduled       Actual
                                                      CBP Plans to           New     Repeat                               Risk
  NFR #          Condition        Recommendation                                              Completion    Completion
                                                      Resolve                Issue   Issue
                                                                                                Date           Date
                                                                                                                         Rating

CBP-IT-07-   This is a            Implement the       Transferred                      X       12/11/2008                Medium
29           component-level      recently            remediation to OF.
             finding. KPMG        developed
             noted that           procedures for
             procedures have      completion of the
             been developed       termination forms
             and a new            and notify System
             termination form     Security for all
             (CF-241) has         terminating
             been developed       employees so that
             for use in           systems access
             terminating          can be removed
             employees.           appropriately.
             KPMG notes that
             while these
             procedures
             address the
             submission of the
             form to System
             Security and
             require
             notification of
             removal of system
             access from
             System Security,
             the new
             procedures were
             developed and
             activated in June,
             2007. The
             procedures are
             currently not
             implemented.
CBP-IT-07-   This is a system-    1.Work with other   CBP concurs with        X               30A-                        High
30           level finding.       US CBP Offices      this finding. The                       4/15/2008
             KPMG noted that      and within OIT to   Office of Finance                       30B-
             multiple             receive notice of   published a new                         4/15/2008
             terminated           termination of      directive for the
             employees            employees in a      Separation
                                                      Procedures for
             retained active      timely manner so
                                                      Government
             accounts on the      that accounts can
                                                      Employees. The
                  . They were     be deactivated on   solution to this
             disabled as a        the departure of    finding will require
             result of accounts   the employee.       all CBP
             being inactive for   2.Terminate         applications to
             90 days.             accounts for        interface with the
             Therefore, these     terminated
             accounts were        employees in a      program in order to
             active 90 days       timely manner.      deactivate accounts
             after the                                automatically.
             employee                                 Beginning in
             terminated from                          November 2007
             US CBP.                                  OIT will begin
                                                      coordinating with
                                                      other CBP offices
                                                      to develop a
                                                      coordinated plan of
                                                      action to address
                                                      this finding




                                           59
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                               APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                               Scheduled      Actual
                                                        CBP Plans to          New     Repeat                              Risk
  NFR #          Condition        Recommendation                                               Completion   Completion
                                                        Resolve               Issue   Issue
                                                                                                 Date          Date
                                                                                                                         Rating

CBP-IT-07-   KPMG noted that      1.Apply               Transferred                     X      12/11/2008                Medium
31           12 of the 45         procedures            remediation to OF.
             selected             outlined in the
             ports/headquarters   newly distributed
             did not have self    memorandum
             inspection           from Office of
             worksheets           Field Operations
             completed.           2.Consistently
             Accordingly,         document results
             KPMG was not         of re-
             able to determine    certifications at
             whether specific     the port level.
                   high risk
             combinations of
             roles were
             performed at
             these
             ports/headquarters
CBP-IT-07-   This is a new        CBP management        Project teams will     X                            12/5/2007    Medium
32           finding for FY       and                   ensure that test
             2007. KPMG           ensure that all       documentation is
             selected 20 out of   program offices       attached to all
             201 changes and      appropriately         change requests
             noted the            document all test     (Ascendant OMS
                                                        of specific types),
             following:           data, transactions,
                                                        and the test
             - 9 of the 20        and program
                                                        documentation will
             changes did not      change results        record the
             have formal test                           reviewer’s name as
             plans or                                   well as the review
             documented                                 date. The
             results                                    Operational
             - None of the                              Maintenance
             changes showed                             Procedure will be
             evidence of                                edited accordingly,
             review of the                              and enacted
             documented test                            October 1st 2007.
             results




                                           60
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                APPENDIX D
                                       US Customs and Border Protection
                                    Information Technology Management Letter
                                               September 30, 2007


                                                                                                Scheduled      Actual
                                                        CBP Plans to           New     Repeat                              Risk
  NFR #          Condition        Recommendation                                                Completion   Completion
                                                        Resolve                Issue   Issue
                                                                                                  Date          Date
                                                                                                                          Rating

CBP-IT-07-   This is a new        CBP management        CBP concurs with        X               3/14/2008                 Medium
33           finding for FY       and the OIT CCB       the finding.
             2007. KPMG           ensure that all       Management will
             selected 15 of 90    program offices       take further steps
                   changes and    appropriately         to monitor the
             noted the            document all test     quality of changes
                                                        to      , including
             following:           data, transactions,
                                                        the review of test
             - 3 of the 15        and program
                                                        documentation and
             selected changes     change results to     test results. The
             did not have         monitor the           OIT CM 2.01
             formally             quality of            Policy dated June
             documented test      program changes.      12, 2006 has
             plans or test                              implemented the
             results.                                   requirement that all
             - None of the                              project
             changes showed                             documentation be
             evidence of                                stored in the OIT
             review of the test                         Configuration
             results                                    Management (CM)
             documented.                                tool, Dimensions.
                                                        Also, Quality
                                                        Assurance review
                                                        will be completed
                                                        to track metrics
                                                        and recommend
                                                        additional
                                                        improvements to
                                                        the process if
                                                        needed.




                                           61
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                                APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                                Scheduled      Actual
                                                       CBP Plans to            New     Repeat                              Risk
  NFR #          Condition         Recommendation                                               Completion   Completion
                                                       Resolve                 Issue   Issue
                                                                                                  Date          Date
                                                                                                                          Rating

CBP-IT-07-   This is a             CBP ensure that     CBP concurs with         X               5/15/2008                 High
34           component-level       antivirus           the finding and has
             finding. KPMG         protection is       already begun
             noted that virus      installed on all    remediation
             protection is not     workstations        activities. Only
             installed on all      under the control   1,557 out of 42,429
                                                       workstations are
             CBP                   of CBP.
                                                       missing virus
             workstations.
                                                       protection
             Specifically,                             software.
             KPMG noted at                             CBP will continue
             the time of testing                       to utilize the
             that                                      reporting function
             approximately                             of      , which has
             6,000 of CBP’s                            the capability of
             approximate                               searching for virus
             38,000                                    definition files that
             workstations do                           are more than 5
             not have antivirus                        updates behind and
             protection                                to search for
             installed. Since                          workstations that
             the initial testing                       do not have the
                                                       agent installed
             was performed,
                                                       (“Uninstalled”
             KPMG has noted
                                                       status). A project
             that immediate                            is being undertaken
             remediation has                           by the DHS
             begun and as of
             September 28,
             2007                                              to ensure
             improvements                              that rogue systems
             have been made                            are identified and
             but 1,557 out of                          workstations that
             42,429                                    do not have the
             workstations still                              agent installed
             are missing virus                         will be forced to do
             protection                                so.
             software.                                 Also, with the new
                                                       rollout of      4.0,
                                                       the
                                                                  will
                                                       require that any
                                                       workstation
                                                       authenticating to
                                                       the domain will
                                                       automatically have
                                                       the       agent
                                                       installed.
                                                       Estimated
                                                       Completion:
                                                       12/31/2007




                                           62
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
                                                                                                              APPENDIX D
                                        US Customs and Border Protection
                                     Information Technology Management Letter
                                                September 30, 2007


                                                                                              Scheduled      Actual
                                                      CBP Plans to           New     Repeat                              Risk
  NFR #          Condition         Recommendation                                             Completion   Completion
                                                      Resolve                Issue   Issue
                                                                                                Date          Date
                                                                                                                        Rating

CBP-IT-07-   During our            The                CBP concurs with                 X                   2/13/2008    High
35           technical testing,    recommendations    the finding.
             eighteen              are listed in an   Anticipated
             configuration         enclosed table     completion of the
             management                               corrective action is
             exceptions were                          Dec 31, 2007.
             identified on




             Controllers and
             hosts supporting
             the
             application.
             These
             vulnerabilities are
             listed in an
             enclosed table.
CBP-IT-07-   During our            The                CBP concurs with                 X                   2/13/2008    High
36           technical testing,    recommendations    the finding.
             thirty-seven patch    are listed in an   Anticipated
             management            enclosed table.    completion of the
             exceptions were                          corrective action is
             identified                               Dec 31, 2007.




             Controllers and
             hosts supporting
             the
             application.
             These
             vulnerabilities are
             listed in an
             enclosed table.




                                           63
  Information Technology Management Letter for the FY 2007 CBP Financial Statement Audit
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
